Case No.
________________________________________________________
______________________________________________________

IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________
______________________________________________________
DOUGLAS CORNEJO,
Petitioner-Appellant,
v.
CHRISTIAN PFEIFFER, Warden,
Respondent -Appellee.
___________________________________________
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
__________________________________
PETITION FOR WRIT OF CERTIORARI
__________________________________
FAY ARFA, A LAW CORPORATION
Fay Arfa, Attorney SBN 100143
10100 Santa Monica Blvd., #300
Los Angeles, CA 90067
Telephone: (310) 841-6805
Fax: (310) 841-0817
E-mail: info@bestdefender.com
ATTORNEY FOR PETITIONER
Douglas Cornejo

QUESTIONS PRESENTED
1.

Should a COA Have Been Granted to Decide If the
Prosecutor’s Failure to Disclose Brady Evidence
Deprived Cornejo of His Right to Confront and CrossExamine His Witnesses at His Preliminary Hearing?

2.

Should a COA Have Been Granted to Decide If the
Admission of Anaya’s Preliminary Hearing Testimony
at Trial Violated Cornejo’s Right to Confront and
Cross Examine Witnesses?

3.

Should a COA Have Been Granted to Decide If the
Trial Court Deprived Cornejo of Due Process, a Fair
Trial, and the Right to Present a Defense by Excluding
Anaya’s Statements from His July 29, 2012 Police
Interview?

4.

Should a COA Have Been Granted to Decide If the
Evidence Failed to Prove That the Gun Was Stolen
and That Cornejo Committed the Crime to Benefit a
Criminal Gang Enhancement?

i

TOPICAL INDEX

Page

QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . i
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL PROVISIONS INVOLVED . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE FACTS . . . . . . . . . . . . . . . . . . . . . . 3
A.

B.

The Prosecution Case . . . . . . . . . . . . . . . . . . . . . . . . . 3
1.

Anaya 's Preliminary Hearing Testimony . . . . . 4

2.

Other Trial Testimony . . . . . . . . . . . . . . . . . . . . 7

The Defense Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

REASONS FOR GRANTING CERTIORARI . . . . . . . . . . 14
I.

THE NINTH CIRCUIT SHOULD HAVE GRANTED
A COA BECAUSE THE PROSECUTOR’S FAILURE
TO DISCLOSE BRADY EVIDENCE DEPRIVED
CORNEJO OF HIS RIGHT TO CONFRONT AND
CROSS-EXAMINE HIS WITNESSES AT HIS
PRELIMINARY HEARING . . . . . . . . . . . . . . . . . . . 14
A.

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

B.

The Prosecution Must Disclose Brady
Evidence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
ii

C.

II.

The Prosecution’s Failure to Disclose Anaya’s
Monetary Benefits Before Cornejo’s Preliminary
Hearing Violated Brady . . . . . . . . . . . . . . . . . . 15

THE NINTH CIRCUIT SHOULD HAVE GRANTED
A COA BECAUSE THE ADMISSION OF ANAYA’S
PRELIMINARY HEARING TESTIMONY AT TRIAL
VIOLATED CORNEJO’S RIGHT TO CONFRONT
AND CROSS EXAMINE WITNESSES . . . . . . . . . . 17
A.

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

B.

A Criminal Defendant Has the Right to Confront
and Cross-Examine Witnesses . . . . . . . . . . . . 18

C.

Admission of the Preliminary Hearing
Transcript in Lieu of Anaya’s Testimony
Deprived Cornejo of His Right to Confront and
Cross-examine Witnesses . . . . . . . . . . . . . . . . 19

III.

THE NINTH CIRCUIT SHOULD HAVE GRANTED
A COA BECAUSE THE TRIAL COURT DEPRIVED
CORNEJO OF DUE PROCESS, A FAIR TRIAL, AND
THE RIGHT TO PRESENT A DEFENSE BY
EXCLUDING ANAYA’S STATEMENTS FROM HIS
JULY 29, 2012 POLICE INTERVIEW . . . . . . . . . . . 22

IV.

THE NINTH CIRCUIT SHOULD HAVE GRANTED
A COA BECAUSE THE EVIDENCE FAILED TO
PROVE THAT THE GUN WAS STOLEN AND THAT
CORNEJO COMMITTED THE CRIME TO BENEFIT
A CRIMINAL GANG ENHANCEMENT . . . . . . . . . 25
A.

The Concealed Gun Charge . . . . . . . . . . . . . . . 25

B.

The Gang Enhancement . . . . . . . . . . . . . . . . . 26
iii

C.

The Evidence Failed to Prove the Gun Charge
and Gang Enhancements . . . . . . . . . . . . . . . . . 26

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
APPENDIX
A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Ninth Circuit Order
B . . . . . . . . . . . . . . . . . . . . . . . U.S. District Court Judgment
U.S. District Court Order Accepting R&R
U.S. District Court R&R
C . . . . . . . . . . . . . . . . . . . . . . . . . . CA Supreme Court Order
CA Court of Appeal Decision

iv

TABLE OF AUTHORITIES
FEDERAL CASES
Brady v. Maryland, 373 U.S. 83 (1963) . . . . . . . . . . . . . . 14, 15, 17
California v. Green, 399 U.S. 149 (1970) . . . . . . . . . . . . . . . . . . . 18
Crane v. Kentucky, 476 U.S. 683 (1986) . . . . . . . . . . . . . . . . . . . . 24
Crawford v. Washington, 541 U.S. 36 (2004) . . . . . . . . . . . . 18, 19
Crittenden v. Chappell, 804 F.3d 998 (9th Cir. 2015) . . . . . . . . . . 3
Davis v. Alaska, 415 U.S. 308 (1974) . . . . . . . . . . . . . . . . . . . . . . 18
Giglio v. United States, 405 U.S. 150 (1972) . . . . . . . . . . . . . . . . 15
Mattox v. United States, 156 U.S. 237 (1895) . . . . . . . . . . . . . . . 20
Miranda v. Arizona, 384 U.S. 436 (1966) . . . . . . . . . . . . . . . . . . 11
Pointer v. Texas, 380 U.S. 400 (1965) . . . . . . . . . . . . . . . . . . 18, 20
Singh v. Prunty, 142 F.3d 1157 (9th Cir. 1997) . . . . . . . . . . . . . 16
Slack v. McDaniel, 529 U.S. 473 . . . . . . . . . . . . . . . . . . . . . . . . . 28
US v. Brumel-Alvarez, 991 F.2d 1452 (9th Cir. 1992) . . . . . . . . 14
Washington v. Texas, 388 U.S. 14 (1967) . . . . . . . . . . . . . . . . . . . 24
STATE CASES
Bridgeforth v. Superior Court, 214 Cal.App.4th 1074 (2013) . . . 16
People v. Gutierrez, 214 Cal.App.4th 343 (2013) . . . . . . . . . . . . . 16
People v. Harris, 165 Cal.App.3d 1246 (1985) . . . . . . . . . . . . . . . 16
v

State v. Spurlock, 874 S.W.2d 602 (Tenn. 1993) . . . . . . . . . . . . . 19

FEDERAL CONSTITUTION
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . passim
FEDERAL STATUTES
28 U.S.C.§ 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3

STATE STATUTES
Cal. Evid. Code § 356 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Cal. Evid. Code § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . 19, 21
Cal. Penal Code § 186.22 . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Penal Code § 207 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Penal Code § 664/187 . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Penal Code § 25400 . . . . . . . . . . . . . . . . . . . . . . . . . 2, 25
Cal. Penal Code § 12022.53 . . . . . . . . . . . . . . . . . . . . . . . . . 2
OTHER AUTHORITIES
Natapoff, Snitching: Criminal Informants and the Erosion of
American Justice, New York University Press (2009) at p. 58
15

vi

Case No.
_______________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_______________________________________________________
DOUGLAS CORNEJO,
Petitioner-Appellant,
v.
CHRISTIAN PFEIFFER, Warden,
Respondent -Appellee.
___________________________________________
Petitioner, DOUGLAS CORNEJO, petitions for a writ
of certiorari to review the United States Court of Appeals
for the Ninth Circuit’s Order denying Cornejo’s request for a
certificate of appealablity. (Appendix A)
OPINION BELOW
On September 15, 2020, the Ninth Circuit Court of
Appeals denied Cornejo’s’ request for a certificate of
appealablity. (Appendix A)

1

JURISDICTION
The jurisdiction of this Court is 28 U.S.C. § 2254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
U.S. Const. Amends. V, VI, XIV; 28 U.S.C.§ 2254.
STATEMENT OF THE CASE
On September 25, 2013, the jury found Cornejo and
his co-defendants Adrian Barajas and Joseph Pacheco guilty
of willful, deliberate and premeditated attempted murder
(Cal. Penal Code §§ 664/187 (a)1) and kidnapping of Anaya.
§ 207(a)
The jury also found Cornejo guilty of carrying a
concealed firearm. § 25400 (a)(2). The jury found that the
offenses were committed to benefit a street gang (§ 186.22,
(b)(1)(C)) and that Cornejo personally used a firearm. §
12022.53 (b).
The trial court sentenced Cornejo to 39 years to life in
state prison.

All further statutory citations reference the Cal. Penal
Code, unless otherwise stated.

1

2

On July 14, 2015, the California Court of Appeal
(CCA) affirmed the judgment. Cornejo then petitioned for
review in the California Supreme Court (CSC). On October
21, 2015, the CSC summarily denied the petition.
Cornejo filed a habeas petition in the federal district
court. The federal district court denied the petition. (No.
CV 16-00889-VBF (GJS).)
On September 15, 2020, the Ninth Circuit denied
Cornejo’s request of a certificate of Ability. (Appendix A)
STATEMENT OF THE FACTS2
A.

The Prosecution Case
[Cornejo and his co-defendants] were
members of the Rockwood criminal street gang.
After obtaining information leading them to
believe that a fellow gang member, Anaya, was
an informant for law enforcement, [Cornejo and
his co-defendants] kidnapped Anaya, took him to

2

The underlying case facts are taken from the
CCA’s opinion on direct review. Because Conejo has not
challenged these factual findings, they are presumed to
be correct. See Crittenden v. Chappell, 804 F.3d 998,
1011 (9th Cir. 2015) (finding that state court’s factual
findings are presumed correct unless “overcome . . . by
clear and convincing evidence”); 28 U.S.C. § 2254(e)(1).
3

an alley, and shot him in the head. Anaya
survived the shooting, and subsequently
identified [Cornejo and his co-defendants] as his
assailants.
1.

Anaya 's Preliminary Hearing Testimony

Trial proceedings started August 30, 2013.
After Anaya invoked his Fifth Amendment rights
and declined to testify at trial, the trial court
declared him unavailable. His October 16, 2012
preliminary hearing testimony was then read
into the record. The testimony was as follows:
In 2012, Anaya had been a member of the
Rockwood gang for several years. Appellants
were fellow gang members.3 On July 28, at about
8:00 p.m., Anaya went to Vargas's apartment to
collect the money Vargas owed him for drugs.
Appellants were the only occupants. Anaya had
two or three guns on him. In exchange for $100,
he gave appellants one of the guns -- a .357caliber revolver.
When Anaya went to the bathroom, he left
his cell phone in the apartment to charge.
Vargas took Anaya's cell phone and looked
through the contacts. Among the contacts was a
sheriff deputy's number. Anaya had stored the
deputy's phone number on his phone after the
deputy had approached him in May 2012 to ask
him some questions. At the preliminary hearing,
Anaya admitted calling the deputy, but denied

3

Anaya did not know appellants' real names,
but knew their gang monikers: Vargas was "Tico,"
Barajas was "Chubbs," Cornejo was "Little Man,"
and Pacheco was "Stamper."
4

agreeing to work for him.
When Anaya came out of the bathroom,
Vargas told him to go back inside. Cornejo, who
was armed with a gun, told Anaya to stay in the
bathroom and locked him inside. After about an
hour, Vargas entered and asked Anaya, "Who
are you working for?" Anaya replied, "What?
What are you talking about?" Vargas repeated:
"Who are you working for?" He then said, "You
fucked up," and stepped outside. Barajas
entered, told Anaya that he had "fucked up," and
struck him in the face. Cornejo and Pacheco then
entered the bathroom separately and struck
Anaya in the face.
Barajas came back and told Anaya to get in
the tub. Vargas and Pacheco then entered.
Vargas had the .357 gun and Pacheco was armed
with a .45-caliber handgun. Vargas then injected
Anaya with methamphetamine. Vargas tied
Anaya's hands behind his back with shoelaces,
placed a hooded sweatshirt over his head, and
led him out of the apartment to a green truck
parked outside. Vargas, Cornejo, and Anaya got
into the truck. Anaya could not see the driver.
Pacheco, who was wearing a Global Positioning
System (GPS) tracking device as a condition of
parole, stayed behind in the apartment.4 Anaya
did not know Barajas's location. When shown
still pictures from a video surveillance of the
building taken at the time, Anaya identified the
men in the picture as Vargas, Pacheco, and

4

The location data from Pacheco's tracking
device showed he entered the apartment at 7:05
p.m., and remained there until 6:39 a.m. the next
morning.
5

Barajas.
After about an hour, the truck stopped near
an alley. Cornejo exited, and Vargas pulled
Anaya out of the vehicle. Vargas ordered Anaya
to go to a corner of the alley, but Anaya started
to run away. Vargas took out the .357 handgun
and shot Anaya in the head. The bullet entered
the left side of Anaya's head and exited the top.
Cornejo took out his gun and attempted to shoot
Anaya, but the gun jammed. Anaya fell to the
ground and pretended to be dead. Vargas said,
"He's gone." Vargas and Cornejo then re-entered
the truck. Anaya, afraid the truck would run him
over, got up to run away. The truck driver tried
to run him down. The side of the truck's bumper
struck Anaya, sending him flying into a trash
can. Anaya got up and started running. He heard
several gunshots and dropped to the ground. The
truck drove away. Anaya went to a store and
called 911 at 4:52 a.m. He was taken to a
hospital, treated, and released.
Anaya was questioned by police officers,
but he provided them with "different stories so I
could just get them off my back." After Anaya
was released from the hospital, he agreed to
speak with Los Angeles Police Detective Carlos
Carias. Detective Carias interviewed Anaya at
the police station, and showed him photographs
in a Rockwood gang photobook. Anaya identified
Vargas's photograph and wrote: "This individual
was the one who shot me in the head, number 3.
Tico [Vargas] is the one who tied me down and
escorted me to the vehicle. I was told by him to
get on the floor. Once arriving . . . at the alley, I
was dragged out and shot by Tico." He also
identified photographs of Pacheco and Cornejo,
writing: "Stomper [Pacheco] number 210, Little
6

Man [Cornejo] number 211 were involved in the
crime of laying hands on me before I got shot in
the head. I received a few blows from these
individuals and had a gun pointing at my head.
Little Man got -- Little Man's gun got jammed in
the alley. So that's why I only got one shot in the
head by Tico."
On August 4, 2012, Anaya identified
Barajas's photograph and wrote: "This individual
in photo six I know him as Chubbs from
Rockwood for several years. Chubbs took me
with Tico. And I got beat up. Later that night I
was shot in the alley. Chubbs was the first one
who said I fucked [up]."
Anaya also identified appellants as his
assailants at the preliminary hearing.
2.

Other Trial Testimony

At the trial, Los Angeles Police Officer
John Boverie testified that at approximately 4:55
a.m. on July 28, he responded to a call of a
shooting. Arriving at the scene, he observed
Anaya sitting on a chair, holding a towel to his
head. Anaya had a gunshot wound to the left
portion of his head and a shoe string tied to his
right wrist. He did not respond to Officer
Boverie's inquiries about who had shot him. The
paramedics then arrived and took Anaya to the
hospital.
Los Angeles Police Officer Ramon Gracia
testified that he also responded to Anaya's 911
call. When he arrived, he observed a male
Hispanic bleeding profusely from his head. When
questioned, Anaya was uncooperative and
provided inconsistent explanations for his
injuries. When Anaya was taken to the hospital,
7

Officer Gracia followed and interviewed him at
the hospital. After providing several versions of
the events, Anaya told Officer Gracia that he
would tell him the truth. Anaya stated that he
had gone with some of his "homies" to purchase
beer. After they purchased the beer, they began
driving to a different location. While in the car,
one of his homies punched him and another
overpowered him and tied his hands behind his
back. The car eventually stopped at an alley, and
one of his homies grabbed him and started to
drag him into the alley. Another homie then
drew a .357 and shot him. Anaya fell to the
ground and pretended to be dead. After the men
left him, he got up and began to run. As he was
running, the car struck him. Anaya told Officer
Gracia that he was an active gang member, and
that he thought he was shot because his homies
thought he was a "rat."
Detective Carias testified that he was
assigned to investigate the shooting. He was
informed that the victim had been checked into a
hospital, and that the victim had identified
himself as Rogelio Garcia. After determining
that the victim's real name was Valentin Anaya,
the detective interviewed Anaya at the police
station. In addition to identifying appellants as
his assailants, Anaya also provided information
about the location of the shooting.
Detective Carias also testified that at one
point, Anaya said he did not know the name of
the driver of the green truck. At another point,
Anaya said he knew the name of the driver, but
would say only that the driver was a Rockwood
gang member. Anaya also told the detective that
as he was being taken from Vargas's apartment
to the truck, he saw a Rockwood gang member
8

by the name of "Cricket."
After Anaya told Detective Carias that he
was afraid for his safety and for his family’s
safety, the detective moved Anaya and his family
to a “safe house.” Detective Carias paid for the
motel directly with emergency funds, and he
gave Anaya additional money for food. In order
to receive the money Anaya signed a form
stating that he would not commit any crimes.
Detective Carias testified that he gave Anaya
$60 in cash on July 29, and $40 on July 30. On
August 16th and September 16th, the detective
gave Anaya $350 for food. On October 16th, he
gave Anaya $350 for food and $300 for
incidentals. On December 4th, he gave Anaya
$1100 for food and $225 for incidentals. Finally,
on January 4, 2013, he gave Anaya $1100 for
food. The food allowance was for both Anaya and
his family. In total, including the housing
assistance, $7,750 was provided to Anaya and
his family.
After Detective Carias interviewed Anaya,
he visited Vargas's apartment building and
looked at surveillance video taken at the time of
the incident. The detective used his cell phone to
capture the surveillance video and to take still
photographs of the video. On August 8, Detective
Carias showed the surveillance video to Los
Angeles Police Detective Antonio Hernandez.
Detective Hernandez recognized Vargas in the
video from prior contacts with him.
The next day, while driving around
Rockwood gang territory looking for the shooting
suspects, Detective Hernandez and his partner,
Officer Philip Zalba, saw Vargas. Vargas saw the
officers and ran away, eventually entering a
swap meet or flea market. When Vargas exited
9

the business, Detective Hernandez was waiting
outside and apprehended him. The detective
searched Vargas, and found a small bag of
ammunition on his person, containing fifteen
.357-caliber bullets. Inside a hole in the wall of
the flea market, police officers recovered a loaded
.357 revolver.
Immediately after Vargas was arrested,
Detective Hernandez learned that Barajas was
next door, inside a cell phone store. The officers
arrested Barajas there.
Pacheco and Cornejo were arrested the
following weeks. On August 14th, Los Angeles
Police Officer Arthur Meza observed Pacheco and
noticed he was wearing a GPS tracking device,
indicating he was on parole. Officer Meza and his
partner approached Pacheco to initiate a parole
search. As the officers approached, Pacheco
placed one of his arms into his waistband, and
grabbed a woman, placing her between himself
and the officers. Pacheco said, "I don't want to do
this." The officers ordered him to let the woman
go, but Pacheco refused. The officers sprayed
Pacheco with pepper spray, but Pacheco
attempted to hide his face in the woman's hair.
Officer Meza's partner then tackled Pacheco and
took him to the ground. As he fell, Pacheco
released the woman. He resisted for about 15
seconds. After he was handcuffed, Pacheco
indicated he was in possession of a firearm. The
officers recovered a loaded .45-caliber
semiautomatic handgun from Pacheco's front
waistband.
On August 22, Detective Hernandez saw
Cornejo walking in Rockwood gang territory.
When Cornejo noticed the officer, he ran away in
the opposite direction. As he was being chased,
10

Cornejo threw a revolver over his head. Cornejo
was apprehended after tripping on the stairs.
The handgun was recovered; it was a Smith and
Wesson chrome .22-caliber revolver, loaded with
six bullets.
Los Angeles Police Officer Michael Chang
testified he interviewed Cornejo after his arrest.
After waiving his Miranda rights,5 Cornejo told
the officer that he had stolen the .22-caliber
handgun from another Rockwood gang member,
whom he did not like. He had taken it from
"some bushes." Cornejo stated that he needed
the handgun for protection because he had been
"jumped out of Rockwood Street [gang] and . . .
had been in a fight in juvenile hall with some
juvenile."
In February 2013, Anaya was arrested for
possession of an assault rifle. He told Officer
Joseph Villagran that he had purchased the rifle
for protection against the Sinaloa Cartel. He
explained that he had lost a pound of
methamphetamine belonging to the Sinaloa
Cartel, and that a "hit" had been placed on him.
Several days later, Officer Bobby Romo
interviewed Anaya. During this interview, Anaya
provided a different explanation for his
possession of the rifle. Anaya said that in July
2012, his fellow gang members had tried to kill
him because they believed he was a "rat." He
stated: "I bought myself a gun for protection
after I was shot in the head by former gang
members."
Detective Hernandez testified as the
prosecution gang expert. Detective Hernandez

5

Miranda v. Arizona, 384 U.S. 436 (1966).
11

personally knew Vargas, Pacheco, and Cornejo to
be members of the Rockwood gang; they had
admitted to him that they were gang members.
Vargas was known by the gang moniker, "Tico"
or "Tiko." Pacheco was known by the gang
monikers, "Stamper" and "Thumper." Cornejo
was known by the gang monikers, "Clash" and
"Baby Tiny." Although Detective Hernandez
never had any personal contact with Barajas,
Detective Hernandez opined that Barajas was a
Rockwood gang member based on his gang
tattoos and Anaya's statements.
Given a hypothetical fact pattern based on
the facts of this case, Detective Hernandez
opined that the kidnapping and attempted
murder of a suspected gang informant was
committed for the benefit of and in association
with the Rockwood criminal street gang. The
assailants were all gang members from the same
gang, and the crimes would benefit the gang
because they would discourage other gang
members from working with law enforcement.
Detective Hernandez also opined that when
Cornejo was arrested on August 22, he possessed
the .22-caliber handgun for the benefit of a
criminal street gang, because having a gang
member with a gun in gang territory would allow
the gang to protect its territory from rival gangs.
The detective also explained that a gang would
have easily accessible and hidden places to store
guns -- such as a bush -- for gang members to
use. He also opined that only gang members
would know these locations.

12

B.

The Defense Case.
Appellants did not testify. Dr. Mitchell
Eisen, a psychologist testified on behalf of
Cornejo. Dr. Eisen testified about possible flaws
in a witness’s identification of suspects due to
factors such as traumatic stress.

13

REASONS FOR GRANTING CERTIORARI
I.

THE NINTH CIRCUIT SHOULD HAVE
GRANTED A COA BECAUSE THE
PROSECUTOR’S FAILURE TO DISCLOSE
BRADY EVIDENCE DEPRIVED CORNEJO OF
HIS RIGHT TO CONFRONT AND CROSSEXAMINE HIS WITNESSES AT HIS
PRELIMINARY HEARING

A.

Introduction

The prosecution failed to disclose that, from July 29,
2012, to October 16, 2012, the day of the preliminary
hearing, Detective Carias paid Anaya and his family $4,475
in witness-protection program benefits. The prosecutor
violated Brady v. Maryland, 373 U.S. 83 (1963) by failing to
disclose Anaya’s witness protection benefits to the defense.
The prosecutor’s Brady violation deprived Cornejo of his
right to cross-examine Anaya at his preliminary hearing.
B.

The Prosecution Must Disclose Brady Evidence

“Evidence impeaching the testimony of a government
witness falls within the Brady rule when the reliability of a
witness may be determinative of a criminal defendant’s
guilt or innocence.” United States v. Brumel-Alvarez, 991
14

F.2d 1452, 1458 (9th Cir. 1992), citing Giglio v. United

States, 405 U.S. 150, 154 (1972) (Prosecution’s failure to
disclose promise not to prosecute in return for testimony
violated Brady.) Impeachment material includes benefits
conferred in exchange for information in the case.
(Natapoff, Snitching: Criminal Informants and the Erosion

of American Justice, New York University Press (2009) at p.
58.)
C.

The Prosecution’s Failure to Disclose Anaya’s
Monetary Benefits Before Cornejo’s Preliminary
Hearing Violated Brady

The prosecution paid Anaya $4,475 in monetary
benefits totalling $4,475 before the preliminary hearing.
But the prosecution failed to notify Cornejo about the
monies. If the prosecution disclosed the monies it paid
Anaya, Cornejo could have cross-examined Anaya to show
that the Anaya tied his testimony to the benefits paid.
A preliminary examination is designed “to establish
whether there exists probable cause to believe that the
defendant has committed a felony.” § 866 (b). The CCA
15

recognizes that the prosecutor’s duty to turn over
impeachment material applies to preliminary hearings. See,

People v. Gutierrez, 214 Cal.App.4th 343, 348 (2013). But
the CCA finds that impeachment material must be tailored
to the purpose of the preliminary hearing. Bridgeforth v.

Superior Court, 214 Cal.App.4th 1074, 1087 (2013); People
v. Harris, 165 Cal.App.3d 1246, 1264 (1985). The CCA
essentially holds that prosecutorial disclosure of
impeachment and exculpatory evidence, at the preliminary
hearing, extends only to that which would affect the
magistrate’s probable cause determination.
The CCA overlooks that, because the case rested on
Anaya’s credibility, Cornejo could have shown that the
benefits motivated him to testify, not about the truth about
what happened to him, but by a desire to satisfy his
benefactor’s expectations.
Anaya’s credibility was “vital to the prosecution’s
case.” Singh v. Prunty, 142 F.3d 1157, 1161-1162 (9th Cir.
1997) (case reversed because prosecutor failed to disclose
16

uncontradicted evidence that a key prosecution witness had
received substantial benefits from the government) Id. at
1162-1163. Cornejo could have impeached Anaya by
showing that Anaya developed his story, which progressed
from complete lack of cooperation at the hospital (4RT 24112413; 5RT 2731, 2738-2739, 2746), to his identification of
Cornejo and the co-defendants.
A COA should have been granted.
II.

THE NINTH CIRCUIT SHOULD HAVE
GRANTED A COA BECAUSE THE
ADMISSION OF ANAYA’S PRELIMINARY
HEARING TESTIMONY AT TRIAL VIOLATED
CORNEJO’S RIGHT TO CONFRONT AND
CROSS EXAMINE WITNESSES

A.

Introduction

Although the prosecution withheld critical information
that the police paid money to Anaya, over defense objection
(2RT 932-934, 1201-1205), the trial court declared Anaya
unavailable as a witness (2RT 1201-1205). By admitting
Anaya’s preliminary hearing testimony at trial, despite the
prosecution’s Brady violation, the trial court deprived
17

Cornejo of due process, a fair trial and the right to confront
the witnesses against him. U.S. Const. amends. V, VI, XIV;

Davis v. Alaska, 415 U.S. 308, 315 (1974); Pointer v. Texas,
380 U.S. 400, 403 (1965); see also Crawford v. Washington,
541 U.S. 36, 57, 68 (2004).
B.

A Criminal Defendant Has the Right to Confront
and Cross-Examine Witnesses

“In all criminal prosecutions, the accused shall enjoy
the right . . . to be confronted with the witnesses against
him.” U.S. Const. amend. VI; California v. Green, 399 U.S.
149, 157 (1970). The right to have a trial free of testimonial
hearsay evidence is of federal constitutional dimension.

Crawford v. Washington, 541 U.S. at 53 (the primary object
of the Sixth Amendment is testimonial hearsay.) Testimony
given at a preliminary hearing is “testimonial” and so, is
admissible at trial only if the witness is unavailable and
“the defendant had an adequate opportunity to crossexamine the witness.” Id. at 57.
“. . . [A]n accused has the right to cross-examine
18

prosecution witnesses to impeach the credibility or establish
motive or prejudice of the witness.” State v. Spurlock, 874
S.W.2d 602, 617 (Tenn. 1993). “This includes the right to
cross-examine a prosecution witness regarding any
promises of leniency, promises to help the witness, or any
other favorable treatment offered to the witness.” Id. The
majority opinion in Crawford expressly rejected the notion
that the Confrontation Clause must bow to the rules of
evidence. Crawford v. Washington, 541 U.S. at 50-51
(“Leaving the regulation of out-of-court statements to the
law of evidence would render the Confrontation Clause
powerless to prevent even the most flagrant inquisitorial
practices.”)
C.

Admission of the Preliminary Hearing
Transcript in Lieu of Anaya’s Testimony
Deprived Cornejo of His Right to Confront and
Cross-examine Witnesses

The trial court admitted Anaya’s preliminary hearing
testimony in lieu of his live testimony under Cal. Evid. Code
§ 1291 which provided in part: (a) Evidence of former
19

testimony is not made inadmissible by the hearsay rule if
the declarant is unavailable as a witness and: [¶] . . . [¶] (2)
The party against whom the former testimony is offered was
a party to the action or proceeding in which the testimony
was given and had the right and opportunity to crossexamine the declarant with an interest and motive similar
to that which he has at the hearing. (Italics added.)
“The substance of the constitutional protection is
preserved to the prisoner in the advantage he has once had
of seeing the witness face-to-face, and of subjecting him to
the ordeal of a cross-examination.” Mattox v. United States,
156 U.S. 237, 244 (1895). (Italics added.) Where the
declarant is unavailable at trial, and the chair is empty,
admission of his prior statements that were not made
“under circumstances affording [the defendant] through
counsel an adequate opportunity” of cross-examination,
violates the Confrontation Clause. Pointer v. Texas, 380
U.S. at 407.
The CCA finds that the admission of Anaya’s
20

preliminary hearing testimony met the requirements of Cal.
Evid. Code § 1291. The CCA also finds Cornejo’s crossexamination constitutionally adequate even though Cornejo
could not cross-examine Anaya at the preliminary hearing
about witness relocation. The CCA finds Anaya identified
Cornejo prior to any offer of relocation assistance. The COA
also finds Cornejo cross-examined Detective Carias at trial
about his payments to Anaya as part of the witness
relocation program.
Cornejo disagrees. Cornejo could not adequately
cross-examine Anaya at the preliminary hearing. Cornejo
could not cross-examine Anaya about his motives and
interest because the prosecutor failed to disclose that the
prosecution paid Anaya, the key witness, monies. If Cornejo
could have questioned Anaya about how he changed his
story to match the timing of the payments he received,
Cornejo could have destroyed Anaya’s credibility.
A COA should have been granted.

21

III.

THE NINTH CIRCUIT SHOULD HAVE
GRANTED A COA BECAUSE THE TRIAL
COURT DEPRIVED CORNEJO OF DUE
PROCESS, A FAIR TRIAL, AND THE RIGHT
TO PRESENT A DEFENSE BY EXCLUDING
ANAYA’S STATEMENTS FROM HIS JULY 29,
2012 POLICE INTERVIEW

The trial court found Anaya unavailable to testify as a
witness at trial and allowed the prosecution to read his
preliminary hearing testimony to the jury. (2CT 338, 344;
4RT 2474-2571;5RT 2710-2742.) Anaya’s preliminary
hearing testimony did not include statements Anaya made
to Officer Carias during a July 29, 2012 interview. (5RT
2773.)
During the July 29, 2012 interview Anaya implied
that during the shooting in the alley, the person he called
Little Man shot himself and screamed. Anaya said, “And
then, when Little Man shot, that’s –oh, I don’t know if – I
don’t know if he shot himself because the gun - he was
having problems with the gun. So he shot. He goes, Oh.”
Anaya also said, “So I think, like, in my head, after all the
incident when I was just in the hospital thinking like – this
22

fool fucking shoot himself or what? That’s the first . . . You
know, because he was having trouble. He was having
trouble with the gun.” (5RT 2772)
Trial counsel wanted the jury to know that when
Cornejo was arrested a few weeks later, there was no
evidence of any gunshot wound or injuries. (5RT 2774.)
Trial counsel also wanted the trial court to admit Anaya’s
adoptive admission that Anaya “heard Little Man kind of
screaming . . . “ (5RT 2776-2777)
Although the statements should have been admitted
under California’s rule of completeness,6 the trial court
denied trial counsel’s request. (7RT 3702-3703) The trial
court’s ruling violated federal law because domestic rules of
evidence may not be invoked to preclude a criminal

Cal. Evid. Code § 356 provides in part: “Where part of
an act, declaration, conversation, or writing is given in
evidence by one party, the whole on the same subject may be
inquired into by an adverse party . . . and when a detached
act . . . is given in evidence, any other act . . . which is
necessary to make it understood may also be given in
evidence. “

6

23

defendant from proving he had been denied a fair trial. See

Washington v. Texas, 388 U.S. 14, 19 (1967).
The CCA finds no error because the statements “ . . .
did not resolve any ambiguity, clarify or otherwise explain
Anaya’s testimony, and . . . they were unnecessary to
understand the testimony.” The CCA finds any error would
be harmless because Anaya identified Cornejo as one of his
assailants and Anaya never said he saw Cornejo shoot nor
heard anyone say that Cornejo had been shot.
Cornejo disagrees. The evidence would have cast some
doubt upon Anaya's identification of Cornejo as Little Man.
If Little Man had actually shot himself in the early morning
hours of July 28, 2012, and Cornejo was really Little Man,
when Cornejo was arrested three weeks later, the police
would have seen evidence that he had been shot.
A COA should have been granted because the
exclusion of Anaya’s statements violated Cornejo’s federal
rights to due process, a fair trial and to present a defense.
U.S. Const. amends. V, VI, XIV; Crane v. Kentucky, 476
24

U.S. 683, 690 (1986).
IV.

THE NINTH CIRCUIT SHOULD HAVE
GRANTED A COA BECAUSE THE EVIDENCE
FAILED TO PROVE THAT THE GUN WAS
STOLEN AND THAT CORNEJO COMMITTED
THE CRIME TO BENEFIT A CRIMINAL
GANG ENHANCEMENT

A.

The Concealed Gun Charge

The jury convicted Cornejo of carrying a concealed
weapon. § 25400 (a).7 Officer Chang, who interviewed
Cornejo after Cornejo’s arrest, told Cornejo that the
arresting officers saw him throw a gun. Cornejo admitted he
had a gun for protection because he had been jumped out of
Rockwood and he had been in a fight in juvenile hall.
Cornejo said he “stole [the gun] from one of the guys [a.k.a.
“Rage”] from Rockwood," that he did not like him, and he

Section 25400(a)(2) provides in part:¶ (a) A person is
guilty of carrying a concealed firearm when the person does
any of the following: ¶ (2) Carries concealed upon the person
any pistol, revolver, or other firearm capable of being
concealed upon the person. . . . (c) ¶ Carrying a concealed
firearm in violation of this section is punishable as follows: ¶
(2) If the firearm is stolen and the person knew or had
reasonable cause to believe that it was stolen, as a felony.

7

25

stole the gun from the bushes where it had been hidden.
(5RT 2707-2708.)
B.

The Gang Enhancement

Detective Hernandez opined that it would benefit the
gang if, during a police pursuit, a Rockwood gang member
threw a gun into a bush and later told the police that he
stole the gun from a bush where that gang member hid the
gun. (7RT 3740.) The gang officer testified that the gang
would benefit because gangs put guns in accessible places to
avoid being caught with a gun and that only gang members
know where they put these guns.
C.

The Evidence Failed to Prove the Gun Charge
and Gang Enhancements

No proof, other than Cornejo’s statement, supported
the notion that Cornejo stole the gun. The gun could not
have been stolen because Hernandez testified that a gang
member hid the gun in a place easily and readily accessible
to other gang members.
Hernandez’ opinion alone supported the gang
26

enhancement based on the stolen gun. The prosecution
theorized that Cornejo stole and concealed the stolen gun to
benefit the gang. But Cornejo said he had been jumped out
of the gang. Cornejo’s statement about why he carried a
concealed firearm conflicted with the notion that he carried
the concealed stolen firearm to benefit the gang. If Cornejo
was jumped out of the gang, then he could not have stolen
the gang gun to use for protection against the gang.
The CCA finds that nothing required the jury to
believe Cornejo’s statement that he had been jumped out of
the gang. The CCA finds that Hernandez opined that only
gang members would know the locations where a gang
would hide firearms, that nothing precludes animosity
between members of the same gang, and that Cornejo could
have stolen the handgun from another gang member for
many reasons and that the Rockwood gang benefitted from
having a member armed in gang territory to defend it from
rival gangs.
A COA should have been granted
27

CONCLUSION
Cornejo respectfully requests that Certiorari be
granted issued because “. . . reasonable jurists could debate
whether (or, . . . agree that) the petition should have been
resolved in a different manner or that the issues presented
were ‘adequate to deserve encouragement to proceed
further.’” Slack v. McDaniel, 529 U.S. 473 (quoting Barefoot

v. Estelle, 463 U.S. at 893 and n. 4.)
DATED: November 11, 2020
Respectfully submitted,
FAY ARFA, A LAW CORPORATION

/s Fay Arfa

______________________________
Fay Arfa, Attorney for Petitioner

28

APPENDIX

Case: 19-55644, 09/15/2020, ID: 11824733, DktEntry: 14, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED
SEP 15 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DOUGLAS CORNEJO,

No.

Petitioner-Appellant,
v.
CHRISTIAN PFEIFFER, Warden,

19-55644

D.C. No. 2:16-cv-00889-VBF-GJS
Central District of California,
Los Angeles
ORDER

Respondent-Appellee.
Before:

RAWLINSON and BRESS, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 13) is denied
because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

APPENDIX A

Case 2:16-cv-00889-VBF-GJS Document 23 Filed 05/20/19 Page 1 of 1 Page ID #:3011

1

JS-6

2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

WESTERN DIVISION

11
12

DOUGLAS CORNEJO,
Petitioner,

13
14
15
16
17

v.
CHRISTIAN PFEIFFER
(Warden),
Respondent.

18
19
20
21
22
23
24
25
26

)
)
)
)
)
)
)
)
)

NO. LA CV 16-00889-VBF-GJS
FINAL JUDGMENT

)
)

Final judgment is hereby entered in favor of the respondent warden and against
petitioner Douglas Cornejo.
IT IS SO ADJUDGED.
Dated: May 20, 2019
VALERIE BAKER FAIRBANK
Senior United States District Judge

27
28

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 22 Filed 05/20/19 Page 1 of 2 Page ID #:3009

1
2
3
4
5
6
7

UNITED STATES DISTRICT COURT

8

CENTRAL DISTRICT OF CALIFORNIA

9

WESTERN DIVISION

10
11
12
13
14
15
16

____________________________________
)

DOUGLAS CORNEJO,

)

)
Petitioner,
)
)
v.
)
)
)
CHRISTINE PFEIFFER (Warden),
)
)
Respondent.
)
____________________________________

No. LA CV 16-00889-VBF-GJS
ORDER
Overruling Petitioner’s Objections;
Adopting the Report & Recommendation;
Denying the Habeas Corpus Petition;
Directing Entry of Separate Judgment;
Dismissing the Action With Prejudice;
Terminating and Closing Action (JS-6)

17
18

The Court has reviewed the records in this case and the applicable law. As required

19

by Fed. R. Civ. P. 72(b)(3), the Court has engaged in de novo review of the portions of the

20

R&R to which petitioner has specifically objected and finds no defect of law, fact, or logic

21

in the R&R. The Court finds discussion of the objections to be unnecessary on this record.

22

“The Magistrates Act ‘merely requires the district judge to make a de novo determination of

23

those portions of the report or specified proposed findings or recommendation to which

24

objection is made.’” It does not require a written explanation of the reasons for rejecting

25

objections, see MacKenzie v. Calif. AG, 2016 WL 5339566, *1 (C.D. Cal. Sept. 21, 2016)

26

(citation omitted), “particularly . . . where, as here, the objections are plainly unavailing”,

27

Smith v. Calif. Jud. Council, 2016 WL 6069179, *2 (C.D. Cal. Oct. 17, 2016). Accordingly,

28

the Court will accept the Magistrate Judge's factual findings and legal conclusions and

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 22 Filed 05/20/19 Page 2 of 2 Page ID #:3010

1

implement her recommendations.

2

ORDER

3
4

Petitioner Cornejo’s objection [Doc # 21] is OVERRULED.

5

The Report and Recommendation [Doc # 18] is ADOPTED.

6

The 28 U.S.C. section 2254 petition for a writ of habeas corpus [Doc # 1] is DENIED.

7

Final judgment consistent with this order will be entered separately as required by

8
9

Fed. R. Civ. P. 58(a). See Jayne v. Sherman, 706 F.3d 994, 1009 (9th Cir. 2013).
The Court will rule on a certificate of appealability by separate order.

10

This action is DISMISSED with prejudice.

11

The case SHALL BE TERMINATED and closed (JS-6).

12

IT IS SO ORDERED.

13
14

Dated: May 20, 2019

____________________________

15

Hon. Valerie Baker Fairbank

16

Senior United States District Judge

17
18
19
20
21
22
23
24
25
26
27
28

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 1 of 45 Page ID #:2949

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

Petitioner

12
13

Case No. CV 16-00889-VBF (GJS)

DOUGLAS CORNEJO,
v.

14

CHRISTIAN PFEIFFER,

15

Respondent.

REPORT AND
RECOMMENDATION OF
UNITED STATES MAGISTRATE
JUDGE

16
17
18

This Report and Recommendation is submitted to United States District Judge

19

Valerie Baker Fairbank, pursuant to 28 U.S.C. § 636 and General Order No. 05-07

20

of the United States District Court for the Central District of California.

21
22
23

INTRODUCTION
On February 9, 2016, Petitioner, a prisoner in state custody, filed a habeas

24

petition pursuant to 28 U.S.C. § 2254 (“Petition”). Respondent filed an Answer to

25

the Petition and lodged the relevant portions of the state record (“Lodg”).

26

Thereafter, Petitioner filed a Reply.

27
28

The matter, thus, is submitted and ready for decision. For the reasons set forth
below, the Court recommends that the District Judge deny the Petition.

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 2 of 45 Page ID #:2950

1

PRIOR STATE PROCEEDINGS

2

Petitioner was tried in Los Angeles County Superior Court with three co-

3

defendants – Adrian Barajas, Douglas Cornejo, and Joseph Pacheco. On September

4

25, 2013, the jury found Petitioner guilty of: attempted murder that was willful,

5

deliberate and premeditated; kidnapping; and having a concealed firearm on his

6

person. The jury also found true various firearm and gang enhancement allegations,

7

including that Petitioner personally used a firearm. (Lodg. P, Clerk’s Transcript

8

(“CT”) 495-99.) Petitioner was sentenced to a total of 39 years to life in state

9

prison. (CT 538-41, 553-54.)

10

Petitioner appealed, raising the claims alleged as Grounds One and Two in the

11

instant Petition and “adopting by reference” certain Brady1 and Confrontation

12

Clause arguments raised by co-defendant Vargas in his opening appeal brief. (Lodg.

13

A, F.) On July 14, 2015, the California Court of Appeal issued a written, reasoned

14

decision affirming the judgment. (Lodg. J.) Petitioner then filed a petition for

15

review in the California Supreme Court, again raising Grounds One and Two but

16

this time, “adopting by reference” a Confrontation Clause claim raised by co-

17

defendant Barajas in his petition for review and the Brady claim previously raised

18

by co-defendant Vargas. (Lodg. K.) On October 21, 2015, the California Supreme

19

Court denied the petition for review without comment or citation to authority.

20

(Lodg. O.)

21
THE UNDERLYING CRIMES

22

As briefly summarized by the California Court of Appeal:

23

[Petitioner and his co-defendants] were members of the
Rockwood criminal street gang. After obtaining
information leading them to believe that a fellow gang
member, [Valentin] Anaya, was an informant for law
enforcement, [Petitioner and his co-defendants]

24
25
26
27
28

1

Brady v. Maryland, 373 U.S. 83 (1963).
2

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 3 of 45 Page ID #:2951

kidnapped Anaya, took him to an alley, and shot him in
the head. Anaya survived the shooting, and subsequently
identified [Petitioner and his co-defendants] as his
assailants.

1
2
3
4

(Lodg. J at 4.) The salient portions of the state court record will be discussed in
detail below in connection with Petitioner’s claims.2

5
6

PETITIONER’S HABEAS CLAIMS

7
8
9
10

Ground One: The trial court erroneously precluded Petitioner from introducing
two statements made by victim Anaya in his police interview, thereby violating
Petitioner’s right to present a defense and to due process and a fair trial. (Petition at
5; Petition Attachment (“Att.”) A.)

11
12

Ground Two: The evidence was insufficient to support the jury’s true findings
that the gun was stolen and on the gang enhancement. (Petition at 5; Att. B.)

13
14
15
16
17

Ground Three: (a) the admission of victim Anaya’s preliminary hearing
testimony violated Petitioner’s rights under the Confrontation Clause; and (b) the
prosecution violated its Brady obligations by failing to disclose – prior to the
preliminary hearing – that Anaya and his family had received relocation payments.
(Petition at 6; Att. C.)3

18
19
20
21
22
23
24
25
26
27
28

2

In Ground Two, Petitioner has raised a limited sufficiency of the evidence
challenge, namely, to the sufficiency of the evidence supporting the jury’s findings
on the above two issues. As Petitioner does not challenge the sufficiency of the
evidence as a whole to support his convictions, the Court has not engaged in a
recitation of all of the evidence of record. Rather, as part of its Ground Two
analysis, the Court will describe the trial evidence relevant to the limited challenge
raised through Ground Two.
3

As discussed infra, in the state courts, Petitioner generally purported to adopt
by reference all claims made by his co-defendants but then qualified his generic
incorporation statement by “specifically” identifying these two claims as the only
additional claims he wished to raise.
3

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 4 of 45 Page ID #:2952

1

STANDARD OF REVIEW

2

Under the Antiterrorism and Effective Death Penalty Act of 1996, as amended

3

(“AEDPA”), Petitioner is entitled to habeas relief only if the state court’s decision

4

on the merits “(1) resulted in a decision that was contrary to, or involved an

5

unreasonable application of, clearly established Federal law, as determined by the

6

Supreme Court” or “(2) resulted in a decision that was based on an unreasonable

7

determination of the facts in light of the evidence presented in the State court

8

proceeding.” 28 U.S.C. § 2254(d); Cullen v. Pinholster, 131 S. Ct. 1388, 1398

9

(2011); see also Harrington v. Richter, 131 S. Ct. 770, 784 (2011) (“By its terms

10

§ 2254(d) bars relitigation of any claim ‘adjudicated on the merits’ in state court,

11

subject only to the exceptions in §§ 2254(d)(1) and (2).”). Petitioner’s claims are

12

governed by the Section 2254(d)(1) standard of review, because the state courts

13

resolved the claims on their merits.4
The claims presented through the instant Petition were raised on direct appeal

14
15

and the California Court of Appeal rejected them on their merits in a reasoned

16

decision. (Lodg. J.) The California Supreme Court thereafter denied review

17

without comment. (Lodg. O.) To resolve these claims, the Court looks to the last

18

reasoned decision on the merits – the California Court of Appeal’s decision on

19

direct appeal. See Berghuis v. Thompkins, 130 S. Ct. 2250, 2259 (2010) (when

20

claims were raised on appeal and denied by state court of appeal on their merits in a

21

reasoned decision, and the state supreme court denied discretionary review, the

22

“relevant state-court decision” under Section 2254(d) was the state court of appeal

23

decision); Cannedy v. Adams, 706 F.3d 1148, 1158-59 (9th Cir.) (the “look through”

24

practice continues to apply on AEDPA review when the California Supreme Court

25

has summarily denied either direct or collateral review of a claim previously

26

adjudicated by a lower court), amended by 733 F.3d 794 (9th Cir. 2013); see also

27
28

4

None of the claims raised by the Petition implicate Section 2254(d)(2).
4

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 5 of 45 Page ID #:2953

1

Wilson v. Sellers, 138 S. Ct. 1188, 1193-96 (2018) (when a state high court issues a

2

summary denial of relief following a reasoned decision by a lower state court

3

denying relief, the federal habeas court looks through the summary denial to the

4

lower court’s reasoned decision for purposes of AEDPA review, because it is

5

presumed the state high court’s decision rests on the grounds articulated by the

6

lower state court).

7

For purposes of Section 2254(d)(1), the relevant “clearly established Federal

8

law” consists of Supreme Court holdings (not dicta), applied in the same context to

9

which the petitioner seeks to apply it, existing at the time of the relevant state court

10

decision. See Lopez v. Smith, 135 S. Ct. 1, 2, 4 (2014) (per curiam); Premo v.

11

Moore, 131 S. Ct. 733, 743 (2011); see also Greene v. Fisher, 132 S. Ct. 38, 43, 45

12

(2011) (“clearly established Federal law” under Section 2254(d)(1) is the law that

13

exists at the time of the state court adjudication on the merits). A state court acts

14

“contrary to” clearly established Federal law if it applies a rule contradicting the

15

relevant holdings or reaches a different conclusion on materially indistinguishable

16

facts. Price v. Vincent, 123 S. Ct. 1848, 1853 (2003). A state court “unreasonably

17

appli[es]” clearly established Federal law if it engages in an “objectively

18

unreasonable” application of the correct governing legal rule to the facts at hand;

19

however, Section 2254(d)(1) “does not require state courts to extend that precedent

20

or license federal courts to treat the failure to do so as error.” White v. Woodall, 134

21

S. Ct. 1697, 1705-07 (2014). “And an ‘unreasonable application of’ [the Supreme

22

Court’s] holdings must be ‘objectively unreasonable,’ not merely wrong; even ‘clear

23

error’ will not suffice.” Id. at 1702 (citation omitted). “The question . . . is not

24

whether a federal court believes the state court’s determination was incorrect but

25

whether that determination was unreasonable — a substantially higher threshold.”

26

Schriro v. Landrigan, 127 S. Ct. 1933, 1939 (2007).

27

Habeas relief may not issue unless “there is no possibility fairminded jurists

28

could disagree that the state court’s decision conflicts with [the Supreme Court’s]
5

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 6 of 45 Page ID #:2954

1

precedents.” Richter, 131 S. Ct. at 786; see also id. at 786-87 (as “a condition for

2

obtaining habeas relief,” a petitioner “must show that” the state decision “was so

3

lacking in justification that there was an error well understood and comprehended in

4

existing law beyond any possibility for fairminded disagreement”). “[T]his standard

5

is ‘difficult to meet,’” Metrish v. Lancaster, 133 S. Ct. 1781, 1786 (2013) (citation

6

omitted), as even a “strong case for relief does not mean the state court’s contrary

7

conclusion was unreasonable,” Richter, 131 S. Ct. at 786. “[S]o long as ‘fairminded

8

jurists could disagree’ on the correctness of the state court’s decision,” habeas relief

9

is precluded by Section 2254(d). Id. (citation omitted). “AEDPA thus imposes a

10

‘highly deferential standard for evaluating state-court rulings,’ . . . and ‘demands

11

that state-court decisions be given the benefit of the doubt.’” Renico v. Lett, 130 S.

12

Ct. 1855, 1862 (2010) (citations omitted).

13
14
15
16

DISCUSSION
Ground One
As discussed in connection with Ground Three, victim Anaya did not testify at

17

trial and, after finding Anaya to be unavailable, the trial court allowed his

18

preliminary hearing testimony to be read into the record. In his first claim,

19

Petitioner complains that the trial court erred in ruling that certain statements Anaya

20

made during his police interview – which Petitioner’s counsel had argued were

21

inconsistent with Anaya’s preliminary hearing testimony – could not be introduced

22

into evidence. Petitioner contends principally that the trial court’s ruling was

23

contrary to California law, and secondarily that the ruling also violated his federal

24

constitutional rights.

25
26

Background

27

On direct appeal, the California Court of Appeal made brief factual findings

28

relevant to Ground One. On habeas review, “a determination of a factual issue
6

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 7 of 45 Page ID #:2955

1

made by a State court shall be presumed to be correct” unless rebutted by the

2

petitioner by clear and convincing evidence. 28 U.S.C. § 2254(e)(1); see also

3

Landrigan, 127 S. Ct. at 1939-40 (“AEDPA also requires federal habeas courts to

4

presume the correctness of state courts’ factual findings unless applicants rebut this

5

presumption with ‘clear and convincing evidence.’”) (citing Section 2254(e)(1));

6

Pollard v. Galaza, 290 F.3d 1030, 1033, 1035 (9th Cir. 2002) (statutory

7

presumption of correctness applies to findings by both trial courts and appellate

8

courts). Petitioner does not challenge the state appellate court’s factual findings,

9

and thus, the Section 2254(e)(1) presumption has not been overcome. Therefore, in

10

accordance with the deference required by AEDPA, the Court quotes those findings

11

below:
At the preliminary hearing, Anaya testified that
when he was dragged into the alley, Vargas shot him in
the head. Anaya also testified that “Little Man”
([Petitioner]) drew a handgun and tried to shoot him, but
the gun jammed. Vargas and [Petitioner] then reentered
the truck. As Anaya began running away, two shots were
fired from the vehicle.

12
13
14
15
16

At trial, the court precluded [Petitioner’s] counsel
from introducing two statements Anaya made to
Detective Carias, stating that “Little Man” was screaming
after the shots were fired from the vehicle and
speculating that [Petitioner] might have shot himself in
the foot.[5] Defense counsel had sought to introduce the
statements to show that [Petitioner] was not “Little Man,”

17
18
19
20
21
22
23
24
25
26
27
28

5

[Footnote 7 in original: Anaya told Detective Carias: “And then, boom. Then
... the Expedition went in reverse. Then they left again. And . . . at that time, I heard
Little Man, that he got off. Because the fool said, get out, get out. He told him, get
out, fool. So fucking—I could hear Tico’s voice. You know, I recognized him. And
then, when Little Man shot, that’s—oh I don’t know if—I don’t know if he shot
himself because the gun—he was having problems with the gun. So he shot. He
goes, oh.” Detective Carias asked, “So you heard him?” Anaya replied: “I heard
him. You know, I don’t know why he was going to scream, you know.” Anaya
further stated, “So I think, like, in my head, after all the incident when I was just in
the hospital thinking like—this fool fucking shoot himself, or what?” Later the
detective asked Anaya if he had heard Little Man screaming, and Anaya answered in
the affirmative.]
7

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 8 of 45 Page ID #:2956

because when arrested a few weeks later, [Petitioner]
showed no sign of injury. The trial court determined that
the two statements were not inconsistent with Anaya’s
preliminary hearing testimony: “There was some kind of
scream after they were in the car. There’s no testimony
about it. And there’s no way of knowing whether he was
screaming because he was frustrated at his gun or he was
screaming because Mr. Anaya had gotten back up or they
were driving away or—you know, it’s total speculation
that he was screaming because he shot himself.” The
court excluded the statements as hearsay, and also under
Evidence Code section 352, as being more prejudicial
than probative.

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

(Lodg. J at 21-22.) (See also Lodg. Q, Reporter’s Transcript (“RT”) 2773-78.)
The California Court of Appeal denied Petitioner’s claim that the trial court erred
in excluding the interview statements made by Anaya. The state appellate court
rejected Petitioner’s contention that admitting the statements was necessary because
they contradicted Anaya’s preliminary hearing testimony, finding that “there was no
preliminary hearing testimony whatsoever about [Petitioner] screaming,” and
“[t]hus, there is no inconsistency between Anaya’s preliminary hearing testimony
and the two hearsay statements defense counsel sought to introduce.” (Lodg. J at
22.) The state appellate court also rejected Petitioner’s contention that, under state
law, the statements were required to be admitted because they were part of the
“same subject matter of the shooting incident” and were necessary to render
Anaya’s testimony understandable. The state appellate court concluded that the
interview statements “did not resolve any ambiguity, clarify or otherwise explain
Anaya’s testimony, and the record reflects they were unnecessary to understand the
testimony.” (Lodg. J at 22-23.)
Finally, the California Court of Appeal determined that, even if there was any
error in not admitting the interview statements, any such error was harmless,
reasoning:
Anaya identified [Petitioner] as one of his assailants. The
statements indicated that [Petitioner] had screamed after
the shots were fired at Anaya from the truck. Anaya
never stated that he observed [Petitioner] shoot himself in
8

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 9 of 45 Page ID #:2957

1
2
3
4
5

the foot, or heard anyone say that [Petitioner] had been
shot. Although Anaya speculated that [Petitioner] may
have screamed because he shot himself in the foot, it is
just as likely that [Petitioner] screamed because the shots
had missed Anaya. Thus, even had the statements been
admitted, it is not reasonably probable that the jury
would have reached a different result.
(Lodg. J at 23.)

6
7
8
9

The Clearly Established Federal Law That Governs Ground One
The bulk of Petitioner’s Ground One argument is devoted to his contention that
the Anaya police interview statements in question (“Anaya Statements”) were

10

admissible under various California Evidence Code provisions, and thus, the trial

11

court committed California law error in excluding their admission. (See Petition

12

Att. A at 7-14.) This contention, however, is one of state law only and is not

13

cognizable on federal habeas review.

14

Federal habeas writs may not issue on the basis of a perceived error of state law

15

interpretation or application. Estelle v. McGuire, 112 S. Ct. 475, 480 (1991) (the

16

question of whether evidence was “‘incorrectly admitted . . . pursuant to California

17

law’” “is no part of a federal court’s habeas review of a state conviction,” because

18

“it is not the province of a federal habeas court to reexamine state-court

19

determinations on state-law questions”); see also Swarthout v. Cooke, 131 S. Ct.

20

859, 861 (2011) (per curiam) (“‘We have stated many times that federal habeas

21

corpus relief does not lie for errors of state law.’”) (citation omitted); Wilson v.

22

Corcoran, 131 S. Ct. 13, 16 (2010) (“it is only noncompliance with federal law that

23

renders a State’s criminal judgment susceptible to collateral attack in the federal

24

courts”) (per curiam); Langford v. Day, 110 F.3d 1380, 1389 (9th Cir. 1997)

25

(“alleged errors in the application of state law are not cognizable in federal habeas

26

corpus” proceedings). A Section 2254 petition may not transform a state law issue

27

into a federal one simply by labeling it a due process violation. Id. A federal court

28

“‘cannot treat a mere error of state law, if one occurred, as a denial of due process;
9

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 10 of 45 Page ID #:2958

1

otherwise, every erroneous decision by a state court on state law would come here

2

as a federal constitutional question.’” Little v. Crawford, 449 F.3d 1075, 1083 n.6

3

(9th Cir. 2006) (citation omitted). Petitioner’s attempt to obtain federal habeas relief

4

based upon purported state law error by the trial court in excluding the Anaya

5

Statements from evidence is not cognizable.

6

Ground One is cognizable only to the extent that it asserts that the exclusion of

7

the Anaya Statements rose to the level of a federal constitutional violation. See,

8

e.g., Estelle v. McGuire, 112 S. Ct. at 480; Jammal v. Van de Kamp, 926 F.2d 918,

9

919-20 (9th Cir. 1991). An evidentiary decision “does not provide a basis for

10

habeas relief unless it rendered the trial fundamentally unfair in violation of due

11

process.” Holley v. Yarborough, 568 F.3d 1091, 1101 (9th Cir. 2009) (internal

12

quotation marks and citation omitted); see also Larson v. Palmateer, 515 F.3d 1057,

13

1065 (9th Cir. 2008) (for purposes of federal habeas review, it is irrelevant whether

14

an evidentiary ruling is correct or not under state law; the only question is whether

15

the ruling rendered the trial so fundamentally unfair as to violate due process). A

16

habeas petitioner “bears a heavy burden in showing a due process violation based on

17

an evidentiary decision.” Boyde v. Brown, 404 F.3d 1159, 1172 (9th Cir. 2005).

18

With respect to Petitioner’s contention that he was deprived of his right to

19

present a defense by the exclusion of the Anaya Statements, “[w]hether rooted

20

directly in the Due Process Clause of the Fourteenth Amendment, or in the

21

Compulsory Process or Confrontation Clauses of the Sixth Amendment, the

22

Constitution guarantees criminal defendants ‘a meaningful opportunity to present a

23

complete defense.’” Crane v. Kentucky, 106 S. Ct. 2142, 2146 (1986) (citations

24

omitted). It is well-established that the Constitution guarantees a criminal defendant

25

a meaningful opportunity to present relevant evidence in his own defense at trial.

26

See, e.g., Taylor v. Illinois, 108 S. Ct. 646, 652 (1988). However, “the right to

27

present relevant testimony is not without limitation. This constitutional right ‘may,

28

in appropriate cases, bow to accommodate other legitimate interests in the criminal
10

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 11 of 45 Page ID #:2959

1

trial process.’” Rock v. Arkansas, 107 S. Ct. 2704, 2711 (1987) (citation omitted).

2

A criminal defendant “must comply with established rules of procedure and

3

evidence designed to assure both fairness and reliability in the ascertainment of guilt

4

and innocence.” Chambers v. Mississippi, 93 S. Ct. 1038, 1049 (1973). “[A]ny

5

number of familiar and unquestionably constitutional evidentiary rules authorize the

6

exclusion of relevant evidence.” Montana v. Egelhoff, 116 S. Ct. 2013, 2017 (1996)

7

(plurality opinion). The states have “broad latitude under the Constitution to

8

establish rules excluding evidence from criminal trials. Such rules do not abridge an

9

accused’s right to present a defense so long as they are not ‘arbitrary’ or

10

‘disproportionate to the purposes they are designed to serve.’” United States v.

11

Scheffer, 118 S. Ct. 1261, 1264 (1998) (citation omitted). For example, the

12

Constitution permits trial judges “wide latitude” to exclude evidence that poses an

13

undue risk of confusion or is “only marginally relevant.” Crane, 106 S. Ct. at 2146;

14

see also Delaware v. Van Arsdall, 106 S. Ct. 1431, 1435 (1986). Thus, a rule such

15

as that set forth in California Evidence Code § 352, on which the trial court relied in

16

Petitioner’s case, may be applied, consistently with the Constitution, to exclude

17

relevant evidence sought to be introduced as part of the defense case. See Egelhoff,

18

116 S. Ct. at 2017 (addressing Section 352’s federal counterpart, Rule 403 of the

19

Federal Rules of Evidence).

20

To serve as a basis for habeas relief on the ground that a defendant’s right to

21

present a defense was violated by the exclusion of evidence, a trial court’s exclusion

22

of evidence pursuant to a state rule must be so fundamentally unfair as to violate the

23

defendant’s right to due process. Spivey v. Rocha, 194 F.3d 971, 977-78 (9th Cir.

24

1999). As explained by the Supreme Court, the exclusion of evidence pursuant to a

25

state rule does not violate a defendant’s right to present a defense unless doing so

26

“significantly undermined fundamental elements of the accused’s defense.”

27

Scheffer, 118 S. Ct. at 1267-68.

28
11

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 12 of 45 Page ID #:2960

1
2
3
4

The Court Must Defer To The State Court’s Decision.
Ground One fails for three reasons, any one of which forecloses federal habeas
relief.
First and foremost, Petitioner has not shown that the state court’s denial of

5

Ground One was an objectively unreasonable application of any clearly established

6

Supreme Court precedent. The trial court concluded that: under state evidentiary

7

law, the Anaya Statements were not inconsistent with Anaya’s preliminary hearing

8

testimony and, thus, were inadmissible hearsay and not relevant; and in any event,

9

the Anaya Statements should be excluded under California Evidence Code § 352,

10

because they were more prejudicial than probative. (RT 2775-78.) As set forth

11

above, it is clearly established federal law that state courts have significant latitude

12

in applying their own rules to exclude the admission of evidence that is confusing or

13

only marginally relevant. Crane, 106 S. Ct. at 2146; Van Arsdall, 106 S. Ct. at

14

1435. As discussed below, the Anaya Statements were far from probative. There

15

was nothing constitutionally impermissible in the trial court’s exercise of its

16

discretion under California Evidence Code § 352 to preclude their admission. See

17

Egelhoff, 116 S. Ct. at 2017. The state court’s rejection of Ground One fails under

18

Section 2254(d)(1), because there is no clearly established federal law that the state

19

court’s decision contravenes or unreasonably applies. See Moses v. Payne, 555 F.3d

20

742, 758-59 (9th Cir. 2009) (reviewing Supreme Court precedent, concluding that

21

the cases do not “squarely address” or clearly establish a controlling legal standard

22

for the exercise of discretion to exclude evidence under state rules like Section 352,

23

and finding that federal habeas relief therefore is precluded in such instances,

24

because a state appellate court’s finding that a trial court’s exercise of its discretion

25

was not constitutionally impermissible “cannot be contrary to or an unreasonable

26

application of clearly established Supreme Court precedent”).

27
28

Second, even if Section 2254(d)(1) did not preclude relief, Ground One
necessarily would fail, because there is no basis for finding that the absence of the
12

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 13 of 45 Page ID #:2961

1

Anaya Statements rendered Petitioner’s trial fundamentally unfair. The Anaya

2

Statements were of little to no evidentiary value; as the state court reasonably found,

3

they were not inconsistent with any testimony Anaya gave at the preliminary

4

hearing and, thus, lacked any impeachment value. Moreover, as the California

5

Court of Appeal observed, the Anaya Statements did not add anything to or explain

6

or otherwise clarify any of Anaya’s preliminary hearing admitted at trial; Petitioner

7

has not shown otherwise. In addition, Petitioner’s counsel sought to capitalize on

8

nothing more than rank speculation by using the Anaya Statements to argue that

9

Petitioner could not have been the shooter because he had no bullet wound when

10

arrested, given that there was nothing to support Anaya’s speculation that perhaps

11

Petitioner had shot himself in the foot in light of his scream. It was not

12

unreasonable to conclude, as the state courts did, that allowing such speculative

13

evidence – bereft of support – could confuse the jury and be more prejudicial than

14

probative. As the Anaya Statements were not relevant and their desired defense

15

usage rested on speculation, their exclusion did not implicate Petitioner’s right to

16

present a defense or confront adverse witnesses, much less render his trial

17

fundamentally unfair. There is no basis for finding a federal constitutional violation.

18

Third and finally, even if there was any arguable basis for this Court to find that

19

federal constitutional error occurred in excluding the Anaya Statements, the

20

California Court of Appeal’s finding of harmless error was not objectively

21

unreasonable. Habeas petitioners “are not entitled to habeas relief based on trial

22

error unless they can establish that it resulted in ‘actual prejudice’” under Brecht v.

23

Abrahamson, 113 S. Ct. 1710 (1993), i.e., an error “had substantial and injurious

24

effect or influence in determining the jury’s verdict.” Davis v. Ayala, 135 S. Ct.

25

2187, 2197 (2015); Brecht, 113 S. Ct. 1722 (internal quotation omitted). If a state

26

court has determined that a trial error was harmless, then “‘a federal court may not

27

award habeas relief under § 2254 unless the harmlessness determination itself was

28

unreasonable.’” Ayala, 135 S. Ct. at 2197 (quoting Fry v. Pliler, 127 S. Ct. 2321,
13

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 14 of 45 Page ID #:2962

1

2326 (2007)). And the Supreme Court made clear in Ayala that the stringent rules

2

governing Section 2254(d) review govern when the state decision under review is

3

one based on harmless error, namely, that “a state-court decision is not unreasonable

4

if fairminded jurists could disagree on [its] correctness” and a petitioner therefore

5

must show that the state court’s decision to reject his claim based on harmless error

6

“was so lacking in justification that there was an error well understood and

7

comprehended in existing law beyond any possibility for fairminded disagreement.”

8

Id. at 2199 (citation and internal quotation marks omitted).

9

As the California Court of Appeal observed, Anaya identified Petitioner as one

10

of his assailants. According to Anaya, Petitioner and the others attacked him in co-

11

defendant Vargas’s apartment, beat him, and locked him in a bathroom. Petitioner

12

specifically threatened Anaya with a gun. (RT 2482-89, 2542, 2715.) Petitioner

13

and two of the others then drove Anaya around for an hour with is hands tied, the

14

truck stopped in an alley, and Petitioner and Vargas made Anaya get out of the truck

15

(RT 2504-09.) Petitioner had a gun in his hand but appeared to be having trouble

16

getting it to fire. Vargas pushed Anaya while Petitioner stood about five feet away,

17

then Vargas shot Anaya in the head and he fell to the ground. Petitioner and Vargas

18

then drove away, and Anaya heard two shots as it drove away. (RT 2511-15, 2526-

19

28.) Neither Petitioner nor his co-defendants testified, and Anaya’s testimony

20

implicating Petitioner therefore was uncontradicted.

21

The evidence of Petitioner’s guilt was ample regardless of what evidence could

22

have been presented regarding subsequent events, including the additional shots

23

Anaya heard as the truck drove away. Even had the jurors heard the wholly

24

speculative statements that Anaya made in his police interview, there is no

25

reasonable likelihood the jury would have acquitted Petitioner. The state court’s

26

finding that it is not reasonably probable the jury would have reached a different

27

result had it learned of the Anaya Statements was objectively reasonable; at a

28

minimum, fairminded jurists could disagree. Accordingly, the state court’s harmless
14

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 15 of 45 Page ID #:2963

1

error finding does not warrant relief under Section 2254(d)(1).

2
3

For all the foregoing reasons, Ground One does not provide any basis for issuing
federal habeas relief. The first claim, therefore, should be denied.

4
Ground Two

5
6

In Ground Two, Petitioner contends that the jury lacked sufficient evidence to

7

support both his Count 7 conviction (for varying a concealed gun that was stolen)

8

and the related gang enhancement found to be true, i.e., the finding that he

9

committed the Count 7 offense for the benefit of his gang.6

10
Background

11

On August 22, 2012, after a short pursuit, Petitioner was arrested. During that

12
13

pursuit, as Petitioner ran, he threw a loaded .22 revolver away, which police

14

recovered. (RT 1928-37.) When he was interviewed, Petitioner told Officer Chang

15

that he had stolen the gun from a Rockwood gang member who he did not like and

16

that he needed it for protection, because he had been “jumped out” of the Rockwood

17

gang and, while in Juvenile Hall, had gotten into a fight with a juvenile. Petitioner

18

stated that he had taken the gun from some bushes approximately four to five days

19

earlier. (RT 2705-08.)
Based on the gun, Petitioner was charged with having a concealed firearm on his

20
21

person, in violation of California Penal Code § 25400(a)(2), and it was alleged that

22
23
6

24
25
26
27
28

In his Reply discussion of Ground Two (pp. 8-9), Petitioner cursorily asserts a
new, additional claim, to wit, that the trial court illegally imposed multiple
enhancements in connection with the Count 7 conviction. Petitioner did not raise
any such claim in the state courts, and thus, this newly-asserted multiple
enhancement claim in unexhausted. 28 U.S.C. § 2254(b)(1). As this new claim is
unexhausted and was improperly raised for the first time in the Reply, it is not
properly before the Court and will not be considered. See Cacoperdo v.
Demosthenes, 37 F.3d 504, 507 (9th Cir. 1994) (claim raised for first time in
traverse may be disregarded).
15

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 16 of 45 Page ID #:2964

1

he committed the offense for the benefit of a criminal street gang (California Penal

2

Code § 186.22(b)(1)(C)). At trial, a gang expert (Detective Hernandez) was

3

presented with a hypothetical based on the facts surrounding Petitioner’s arrest.

4

Specifically, the hypothetical included the following facts: a Rockwood gang

5

member is observed by police on the street in Rockwood gang territory; he runs

6

away and there is a brief pursuit; during the pursuit, officers see something in the

7

gang member’s hand, which he throws; officers retrieve the object and determine it

8

is a firearm; when interviewed by the police, the gang member admits he had the

9

gun and claimed he had it for protection and he just got jumped out of the

10

Rockwood gang; he stole the gun from a fellow gang member; and he took the gun

11

from some bushes in which the other gang member would hide it. (RT 3737-38.)

12

The gang expert opined that, under these facts, the gang member’s possession of the

13

gun benefitted the Rockwood gang, because the gang member walking in the

14

neighborhood while armed would be able to protect the neighborhood from rival

15

gang members. The gang expert further opined that it was significant that the gun

16

was stored in a bush, because this rendered it readily accessible to other gang

17

members, who could avoid always having to carry a gun on their persons and being

18

caught by law enforcement in possession of a gun. (RT 3738-40.)

19

The jury found Petitioner guilty of the charged Section 25400(a)(2) offense and

20

found true the related gang enhancement allegation. It also found true the allegations

21

that the firearm was stolen and Petitioner knew or reasonably should have known

22

that it was stolen. (CT 495-99.)

23

On direct appeal, the California Court of Appeal rejected Petitioner’s contention

24

that the evidence was insufficient to support the Section 25400(a)(2) conviction,

25

because there was no evidence the gun was stolen, and to support the related gang

26

enhancement. As to the latter, the state appellate court found that the gang expert’s

27

testimony was sufficient under California law to prove the elements of the gang

28

enhancement. (Lodg. J at 25.) With respect to the former, as the state appellate
16

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 17 of 45 Page ID #:2965

1

court observed, Petitioner “himself told Officer Change that he had stolen the

2

handgun.” (Id.)

3

The California Court of Appeal also rejected Petitioner’s argument that “it would

4

be inconsistent for him to possess a concealed firearm to benefit the Rockwood gang

5

when he had been ‘jumped out’ of the gang and had stolen it from a Rockwood gang

6

member.” The state appellate court reasoned:

7
8
9
10
11
12
13
14
15
16
17

First, the jury was not required to believe [Petitioner’s]
statement that he had been jumped out of the gang.
Indeed, Detective Hernandez opined that only gang
members would know the hidden locations where a gang
would store firearms. Second, nothing precludes
animosity between members of the same gang.
[Petitioner] could have stolen the handgun from another
gang member for myriad reasons, none of which would
negate the fact that the Rockwood gang benefitted from
having a member armed in gang territory to defend it
from rival gangs. Stated differently, the gang would
benefit if [Petitioner] were willing to defend its interests
despite any personal animosity toward a specific gang
member. In short, a reasonable jury could have made
both findings, and there was substantial record in the
evidence to support them.
(Lodg J at 25.)

18
19
20
21
22
23
24
25
26
27
28

The Clearly Established Federal Law That Governs Ground Two
The Fourteenth Amendment’s Due Process Clause guarantees that a criminal
defendant may be convicted only “upon proof beyond a reasonable doubt of every
fact necessary to constitute the crime with which he is charged.” In re Winship, 90
S. Ct. 1068, 1073 (1970). The federal standard for determining the sufficiency of
the evidence to support a jury finding is set forth in Jackson v. Virginia, 99 S. Ct.
2781 (1979). Under Jackson, “the relevant question is whether, after viewing the
evidence in the light most favorable to the prosecution, any rational trier of fact
could have found the essential elements of the crime beyond a reasonable doubt.”
Id. at 2789 (emphasis in original); see also Cavazos v. Smith, 132 S. Ct. 2, 4 (2011)
17

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 18 of 45 Page ID #:2966

1

(per curiam) (a habeas court “may set aside the jury’s verdict on the ground of

2

insufficient evidence only if no rational trier of fact could have agreed with the

3

jury”). “Put another way, the dispositive question under Jackson is ‘whether the

4

record evidence could reasonably support a finding of guilt beyond a reasonable

5

doubt.’” Chein v. Shumsky, 373 F.3d 978, 982-83 (9th Cir. 2004) (en banc) (quoting

6

Jackson); see also Drayden v. White, 232 F.3d 704, 709-10 (9th Cir. 2000)

7

(explaining that the evidence may be sufficient to support a jury’s finding even if it

8

does not “compel” that finding).

9

“‘Circumstantial evidence and inferences drawn from it may be sufficient to

10

sustain a conviction.’” Walters v. Maass, 45 F.3d 1355, 1358 (9th Cir. 1995)

11

(citation omitted). The reviewing court need not decide whether it would have

12

found the trial evidence sufficient or scrutinize “the reasoning process actually used

13

by the fact-finder.” Jackson, 99 S. Ct. at 2788-89 & n.13. Jackson also does not

14

require that the prosecutor affirmatively “‘rule out every hypothesis except that of

15

guilt.’” Wright v. West, 112 S. Ct. 2482, 2492 (1992) (citation omitted). When the

16

factual record supports conflicting inferences, the federal court must presume – even

17

if it does not affirmatively appear on the record – that the trier of fact resolved any

18

such conflicts in favor of the prosecution and defer to that resolution. Jackson, 99 S.

19

Ct. at 2793. “Jackson leaves juries broad discretion in deciding what inferences to

20

draw from the evidence presented at trial,” and it requires only that they draw

21

“‘reasonable inferences from basic facts to ultimate facts.’” Coleman v. Johnson,

22

132 S. Ct. 2060, 2064 (2012) (per curiam) (citation omitted).

23

Finally, “federal courts must look to state law for ‘the substantive elements of the

24

criminal offense,’ [Jackson,] 99 S. Ct. [at 2792 n.16], but the minimum amount of

25

evidence that the Due Process Clause requires to prove the offense is purely a matter

26

of federal law.” Johnson, 132 S. Ct. at 2064.

27
28

In addition, when, as here, a case is governed by Section 2254(d)(1), the federal
habeas court must “apply the standards of Jackson with an additional layer of
18

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 19 of 45 Page ID #:2967

1

deference.” Juan H. v. Allen, 408 F.3d 1262, 1274 (9th Cir. 2005); see also

2

Johnson, 132 S. Ct. at 2062 (“We have made clear that Jackson claims face a high

3

bar in federal habeas proceedings because they are subject to two layers of judicial

4

deference.”) This doubly deferential standard limits the federal habeas court’s

5

inquiry to whether the state court’s rejection of a sufficiency of the evidence

6

challenge was an objectively unreasonable application of Jackson. Emery v. Clark,

7

643 F.3d 1210, 1214 (9th Cir. 2011); see also Johnson, 132 S. Ct. at 2062.

8
9
10

The State Court Decision Is Entitled To Deference
Ground Two rests on Plaintiff’s contention that it was fundamentally inconsistent

11

for the jury to find that he was carrying a concealed stolen gun on his person in

12

violation of California Penal Code § 25400(a)(2) yet to also find that he committed

13

the offense to benefit the Rockwood street gang, and thus, neither finding is

14

supported by sufficient evidence. Petitioner argues that the jury could not logically

15

have reached both conclusions given his statement to the police that he had been

16

“jumped out” of the gang, reasoning that his act of stealing and carrying the gun of a

17

gang member could not have benefitted the gang if he was no longer a member.

18

Petitioner’s arguments misapprehend the manner in which the Jackson standard

19

operates, including the requirement that the evidence be viewed in the light most

20

favorable to the prosecution. His Ground Two theory rests on the premise that the

21

jury was obligated to believe that, in fact, Petitioner had been “jumped out” of the

22

gang simply because he had so told the police. Petitioner, however, did not testify at

23

trial, and no evidence was presented that he somehow no longer was a gang

24

member. It was an objectively reasonable application of the Jackson standard for

25

the California Court of Appeal to conclude that the jury was not required to believe

26

Petitioner’s self-serving statement to the police in this respect.

27
28

Similarly, the jury was not required to believe Petitioner’s statement to the police
about why he stole the gun from its hiding place – a hiding place that would have
19

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 20 of 45 Page ID #:2968

1

been known only to other members of the gang. It was wholly reasonable for the

2

state court to find that Petitioner could have stolen the gun from another gang

3

member for a variety of reasons, which could have included personal animosity

4

toward that gang member or a desire on Petitioner’s part to be armed for whatever

5

reason. All of those possible motivations would not have been inconsistent with a

6

finding that his possession of the gun while in Rockwood territory provided a

7

benefit to the gang, for the reasons the gang expert explained without contradiction.

8

Petitioner’s Ground Two “sufficiency of the evidence” challenge is not so much

9

an actual challenge to the sufficiency of the evidence presented to support the

10

Section 25400(a)(2) charge and the gang enhancement allegation but, rather, a

11

contention that the jury should have adhered to what Petitioner told the police and

12

thereby rendered different findings. This challenge fails, because there was ample

13

evidence to support both jury findings.7 Petitioner simply argues that the jury

14

should have reached different findings based on his self-serving view of what the

15

evidence meant. A court applying the Jackson standard, however, does not so

16

conduct its review, and Petitioner’s Ground Two theory runs afoul of the Jackson

17

test. See United States v. Nevils, 598 F.3d 1158, 1164, 1167 (9th Cir. 2010) (en

18

banc) (under Jackson, a federal court “may not ask whether a finder of fact could

19

have construed the evidence produced at trial to support acquittal,” and it is error to

20

“construe the evidence in a manner favoring innocence rather than in a manner

21

favoring the prosecution”). And a federal habeas court applying the deferential

22

Section 2254(d) standard is even more constrained. Even if, hypothetically, there is

23

a fairminded jurist who might find Petitioner’s contradiction argument to be

24

persuasive, plainly, other fairminded jurists could find exactly as the California

25

Court of Appeal did and that a reasonable jury could have made both findings at

26
27
28

7

Critically, Petitioner does not challenge the propriety or adequacy of the gang
expert’s testimony regarding why a gang member’s possession of a gun stolen from
another gang member under the circumstances at issue here would benefit the gang.
20

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 21 of 45 Page ID #:2969

1

issue. There is no basis for finding the Section 2254(d) threshold to be surmounted

2

as to Ground Two, and thus, the claim necessarily fails.

3
Ground Three

4

For Ground Three, Petitioner states only that he “adopts by reference and joins

5
6

Arguments of Co-Appellants’ Petition” and then directs the Court to “see”

7

Attachment C to the Petition. (Petition at 6.) The brief statement set forth in the

8

Petition on its own is much too vague to set forth any cognizable federal habeas

9

claim, as it fails to identify the nature and substance, along with the factual

10

underpinnings, of any claim that Petitioner actually intends to raise. That said,

11

Attachment C adds some clarity.
In Attachment 3, Petitioner states that he “[s]pecifically” “incorporates by

12
13

reference” the following two claims raised by co-defendants Barajas and Vargas in

14

their state high court petitions for review: (1) given that Anaya did not testify at

15

trial, was it prejudicial error to admit his preliminary hearing testimony when

16

potential impeachment evidence related to Anaya was not disclosed until after the

17

preliminary hearing?; and (2) did the prosecutor violate his Brady obligation by

18

failing to disclose the same potential impeachment evidence (witness relocation

19

assistance payments made to Anaya and his family) until trial? The Court will deem

20

these two claims to constitute Petitioner’s Ground Three claim.8 As so construed,

21
22
23
24
25
26
27
28

8

The Court’s construction of Ground Three disposes of Respondent’s
argument (Answer at 18-19) that any other claims possibly raised through Ground
Three may be unexhausted.
In his Reply (at 10), perhaps in response to Respondent’s above argument,
Petitioner states that due to the “prematureness” of his co-defendants’ “case,” he
wishes to “temporar[i]ly withdraw” Ground Three and then have the Court “reentertain” the claim when its “has become ‘ripe.’” There is nothing in the record
that renders Ground Three – as so construed herein – to be premature or unripe.
As no factual basis for Petitioner’s request exists, the Court declines to allow him to
withdraw the claim with the condition that he be allowed to re-raise it later. Either
the claim is to be considered and resolved now, or not at all, given that it plainly
21

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 22 of 45 Page ID #:2970

1

Ground Three challenges the constitutional validity of: the prosecutor’s failure to

2

disclose possible impeachment evidence related to Anaya until after he had testified

3

at the preliminary hearing; and the trial court’s decision to allow Anaya’s

4

preliminary hearing testimony to be presented into evidence at trial after Anaya

5

became unavailable to testify at trial.

6
The Relevant State Court Proceedings

7

Anaya testified for the prosecution at the October 16, 2012 preliminary hearing.

8
9

(CT 4-51, 104-09, 113-14.) He also was cross-examined by counsel for Petitioner

10

and his co-defendants. (CT 51-71, 109-11 (Vargas); CT 72-86, 111-12 (Petitioner);

11

CT 87-98 (Pacheco); and CT 98-103, 112-13 (Barajas).) The California Court of

12

Appeal summarized Anaya’s preliminary hearing testimony as follows:
In 2012, Anaya had been a member of the
Rockwood gang for several years. [Petitioner and his codefendants] were fellow gang members.[9] On July 28, at
about 8:00 p.m., Anaya went to Vargas’s apartment to
collect the money Vargas owed him for drugs.
[Petitioner and his co-defendants] were the only
occupants. Anaya had two or three guns on him. In
exchange for $100, he gave [Petitioner and his codefendants] one of the guns – a .357-caliber revolver.

13
14
15
16
17
18

When Anaya went to the bathroom, he left his cell
phone in the apartment to charge. Vargas took Anaya’s
cell phone and looked through the contacts. Among the
contacts was a sheriff deputy’s number. Anaya had stored
the deputy’s phone number on his phone after the deputy
had approached him in May 2012 to ask him some
questions. At the preliminary hearing, Anaya admitted

19
20
21
22
23
24

26

could not satisfy the 28 U.S.C. § 2244(b) requirements should it be re-raised later on
through a second or successive habeas petition. The Court presumes that Petitioner
would prefer to have the claim considered rather than lose the right to have it
considered and so will proceed with its analysis of Ground Three.

27

9

25

28

[Footnote 2 in original: “Anaya did not know [Petitioner’s and his codefendants’] real names, but knew their gang monikers: Vargas was ‘Tico,’ Barajas
was ‘Chubbs,’ [Petitioner] was ‘Little Man,’ and Pacheco was ‘Stomper.’”]
22

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 23 of 45 Page ID #:2971

calling the deputy, but denied agreeing to work for him.

1

When Anaya came out of the bathroom, Vargas
told him to go back inside. [Petitioner], who was armed
with a gun, told Anaya to stay in the bathroom and
locked him inside. After about an hour, Vargas entered
and asked Anaya, “Who are you working for?” Anaya
replied, “What? What are you talking about?” Vargas
repeated: “Who are you working for?” He then said,
“You fucked up,” and stepped outside. Barajas entered,
told Anaya that he had “fucked up,” and struck him in the
face. [Petitioner] and Pacheco then entered the bathroom
separately and struck Anaya in the face.

2
3
4
5
6
7
8

Barajas came back and told Anaya to get in the
tub. Vargas and Pacheco then entered. Vargas had the
.357 gun and Pacheco was armed with a .45-caliber
handgun. Vargas then injected Anaya with
methamphetamine. Vargas tied Anaya’s hands behind
his back with shoelaces, placed a hooded sweatshirt over
his head, and led him out of the apartment to a green
truck parked outside. Vargas, [Petitioner], and Anaya got
into the truck. Anaya could not see the driver. Pacheco,
who was wearing a Global Positioning System (GPS)
tracking device as a condition of parole, stayed behind in
the apartment.[10] Anaya did not know Barajas’s
location. When shown still pictures from a video
surveillance of the building taken at the time, Anaya
identified the men in the picture as Vargas, Pacheco, and
Barajas.

9
10
11
12
13
14
15
16
17
18

After about an hour, the truck stopped near an
alley. [Petitioner] exited, and Vargas pulled Anaya out
of the vehicle. Vargas ordered Anaya to go to a corner of
the alley, but Anaya started to run away. Vargas took out
the .357 handgun and shot Anaya in the head. The bullet
entered the left side of Anaya’s head and exited the top.
[Petitioner] took out his gun and attempted to shoot
Anaya, but the gun jammed. Anaya fell to the ground
and pretended to be dead. Vargas said, “He’s gone.”
Vargas and [Petitioner] then re-entered the truck. Anaya,
afraid the truck would run him over, got up to run away.
The truck driver tried to run him down. The side of the

19
20
21
22
23
24
25
26
27
28

10

[Footnote 3 in original: “The location data from Pacheco’s tracking device
showed he entered the apartment at 7:05 p.m., and remained there until 6:39 a.m. the
next morning.”]
23

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 24 of 45 Page ID #:2972

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24

truck’s bumper struck Anaya, sending him flying into a
trash can. Anaya got up and started running. He heard
several gunshots and dropped to the ground. The truck
drove away. Anaya went to a store and called 911 at
4:52 a.m. He was taken to a hospital, treated, and
released.
Anaya was questioned by police officers, but he
provided them with “different stories so I could just get
them off my back.” After Anaya was released from the
hospital, he agreed to speak with Los Angeles Police
Detective Carlos Carias. Detective Carias interviewed
Anaya at the police station, and showed him photographs
in a Rockwood gang photobook. Anaya identified
Vargas’s photograph and wrote: “This individual was
the one who shot me in the head, number 3. Tico
[Vargas] is the one who tied me down and escorted me to
the vehicle. I was told by him to get on the floor. Once
arriving ... at the alley, I was dragged out and shot by
Tico.” He also identified photographs of Pacheco and
[Petitioner], writing: “Stomper [Pacheco] number 210,
Little Man [Petitioner] number 211 were involved in the
crime of laying hands on me before I got shot in the head.
I received a few blows from these individuals and had a
gun pointing at my head. Little Man got – Little Man’s
gun got jammed in the alley. So that’s why I only got
one shot in the head by Tico.”
On August 4, 2012, Anaya identified Barajas’s
photograph and wrote: “This individual in photo six I
know him as Chubbs from Rockwood for several years.
Chubbs took me with Tico. And I got beat up. Later that
night I was shot in the alley. Chubbs was the first one
who said I fucked [up].”
Anaya also identified [Petitioner and his codefendants] as his assailants at the preliminary hearing.
(Lodg. J at 4-6.)
After the preliminary hearing but before trial, defense counsel were informed by

25

a detective that Anaya had received relocation assistance from the police. (Lodg. Q,

26

Reporter’s Transcript (“RT”) 2569; see also Lodg. E at 13.)

27

On September 4, 2013, during jury selection, a question arose about whether

28

Anaya would invoke his Fifth Amendment right to remain silent and would not
24

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 25 of 45 Page ID #:2973

1

testify at trial. (RT 904, 911, 916.) Anaya was called to testify pursuant to

2

California Evidence Code § 402. Anaya declined to answer questions, invoking his

3

Fifth Amendment privilege, and the trial court found that he had made a valid

4

invocation of the privilege. (RT 920-24; CT 340.) Counsel for all parties stipulated

5

that Anaya was unavailable for purposes of testifying at trial, and the trial court so

6

found. (RT 935-36.)

7

On September 6, 2013, the trial court held a hearing on whether the transcript of

8

Anaya’s preliminary hearing testimony should be allowed into evidence at trial in

9

light of his unavailability. The trial court concluded that the prosecutor would be

10
11
12
13

allowed to use the transcript. (RT 1201-08.)
On September 12-13, 2013, Anaya’s preliminary hearing testimony was read into
the trial record. (RT 2474-568, 2710-42.)
During the middle of the reading of Anaya’s preliminary hearing testimony into

14

the record, the prosecution provided the trial court with documentation regarding the

15

relocation assistance provided to Anaya, for the trial court’s in camera review. (RT

16

2569-70, 2701.) The next morning, before the remainder of Anaya’s testimony was

17

read, the trial court stated that the only potentially relevant information was an

18

itemization of how much was paid to Anaya and his family and the dates of

19

payment, and ordered the prosecutor to provide this information to the defense. (RT

20

2701-02.) That day, the prosecutor prepared a document detailing this information

21

and provided it to defense counsel. (RT 2766-67.) Vargas’s counsel asked whether

22

Anaya had signed anything in connection with receiving the relocation assistance or

23

had signed anything agreeing to work for law enforcement. (RT 2767.) The

24

prosecutor responded in the negative as to the latter but advised that Anaya had

25

signed something in connection with receiving the assistance and a copy was

26

included in the documents provided. (RT 2767-68.)

27

Subsequently, Officer Carias testified that Anaya expressed fear for his safety

28

and for his family’s safety and, as a result, Anaya and his family received relocation
25

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 26 of 45 Page ID #:2974

1

assistance. (RT 3435, 3642, 3674, 3694-95.) Carias was questioned by defense

2

counsel at trial about the relocation assistance provided to Anaya and his family,

3

including his parents. Carias described cash payments for food and incidentals of

4

$60 and $40 (July 2012), $293 and $350 (August 2012), $350 (September 2012),

5

$350 and $300 (October 2012), $225 and $1,100 (December 2012), and $1,100

6

(January 2013), when the agreement ended. (RT 3670-72, 3682-85.) In addition, in

7

December 2012, and January 2013, law enforcement paid $1,500 each month to the

8

landlord for the family’s rent. (RT 3686-87.) In total, Anaya and his family

9

received $8,250 in assistance.11 (RT 3691.) After the family received threats,

10

additional funds were authorized but were not expended. (RT 3703-04.)

11
12

The Clearly Established Federal Law That Governs This Case

13

Through Ground Three as construed herein, Petitioner raises both a Brady claim

14

and a Sixth Amendment Confrontation Clause claim. With respect to the former,

15

under Brady v. Maryland, 83 S. Ct. 1194 (1963), the State violates a defendant’s

16

right to due process if it withholds evidence that is favorable to the defense and

17

material to the defendant’s guilt or punishment. Smith v. Cain, 132 S. Ct. 627, 630

18

(2012). “There are three components of a true Brady violation: The evidence at

19

issue must be favorable to the accused, either because it is exculpatory, or because it

20

is impeaching; that evidence must have been suppressed by the State, either

21

willfully or inadvertently; and prejudice must have ensued.” Strickler v. Greene,

22
23
24
25
26
27
28

11

In his California Court of Appeal opening brief, Vargas asserted that Anaya
has received $4,475 in relocation assistance by the time he testified at the
preliminary hearing (Lodg. B at 37), but this assertion was based on a
misapprehension of the record. Vargas back-pedaled from it in his reply brief
(Lodg. G) and omitted it entirely from his petition for review filed with the
California Supreme Court (Lodg. L). As Officer Carias explained, although the
amount of $4,775 for assistance initially was authorized as a ceiling, a further
amount was authorized after the family received threats. In any event, the amounts
paid to Anaya before the preliminary hearing came to a total of approximately
$1,850. (RT 3670-72, 3683, 3703-04.)
26

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 27 of 45 Page ID #:2975

1

119 S. Ct. 1936, 1948 (1999). “The terms ‘material’ and ‘prejudicial’ are frequently

2

used interchangeably to describe the final requirement of a Brady violation.” Bailey

3

v. Rae, 339 F.3d 1101, 1115 n.6 (9th Cir. 2003).

4

Evidence is material under Brady “if there is a reasonable probability that, had

5

the evidence been disclosed to the defense, the result of the proceeding would have

6

been different.” Kyles v. Whitley, 115 S. Ct. 1555, 1565 (1995) (quoting United

7

States v. Bagley, 105 S. Ct. 3375, 3383 (1985)). “A reasonable probability does not

8

mean that the defendant ‘would more likely than not have received a different

9

verdict with the evidence,’ only that the likelihood of a different result is great

10

enough to ‘undermine[] confidence in the outcome of the trial.’” Smith, 132 S. Ct.

11

at 630 (quoting Kyles, 115 S. Ct. at 1566).

12

With respect to Petitioner’s Sixth Amendment claim, the Confrontation Clause

13

provides that, “[i]n all criminal prosecutions, the accused shall enjoy the right . . . to

14

be confronted with the witnesses against him.” A defendant has the right to cross-

15

examine adverse witnesses so that the jury may evaluate general credibility, as well

16

as appraise the biases and motivations of a witness. Olden v. Kentucky, 109 S. Ct.

17

480, 483 (1988); Van Arsdall, 106 S. Ct. at 1435; Evans v. Lewis, 855 F.2d 631, 634

18

(9th Cir. 1988). However, the Confrontation Clause guarantees only “an

19

opportunity for effective cross-examination not cross-examination that is effective

20

in whatever way, and to whatever extent, the defense might wish.” Van Arsdall, 106

21

S. Ct. at 1435 (citation and internal quotations omitted). In addition, the Supreme

22

Court has “never insisted on an actual face-to-face encounter at trial in every

23

instance in which testimony is admitted against a defendant” and, instead, has

24

“repeatedly held that the Clause permits, where necessary, the admission of certain

25

hearsay statements against a defendant despite the defendant’s inability to confront

26

the declarant at trial.” Maryland v. Craig, 110 S. Ct. 3157, 3164 (1990).

27

In Crawford v. Washington, 124 S. Ct. 1354 (2004), the Supreme Court revisited

28

some of its prior precedent and held that the Sixth Amendment bars the admission of
27

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 28 of 45 Page ID #:2976

1

“testimonial” statements of a witness who does not appear at trial, unless the witness

2

is unavailable to testify and the defendant had a prior opportunity for cross-

3

examination. Id. at 1365. Under Crawford, prior testimony at a preliminary hearing

4

is “testimonial” for Confrontation Clause purposes. Id. at 1374. Crawford, thus,

5

recognized the possibility that the prior preliminary hearing testimony of a witness

6

now unavailable for trial may serve as trial evidence without violating the

7

Confrontation Clause, depending on the prior opportunity to cross-examine. Indeed,

8

prior to Crawford, the Supreme Court held that, when a witness is unavailable to

9

testify at trial, the admission of his prior preliminary hearing testimony will not

10

violate the Confrontation Clause as long as the defendant was represented at the

11

preliminary hearing by counsel who had the opportunity to conduct an effective

12

cross-examination. California v. Green, 90 S. Ct. 1930, 1938-39 (1970); see also

13

Ohio v. Roberts, 100 S. Ct. 2531, 2542-43 (1980) (finding no Confrontation Clause

14

violation in use of witness’s preliminary hearing testimony at trial when defense

15

counsel had an adequate opportunity to cross-examine her at the preliminary hearing

16

and did so; and further holding that, absent an “extraordinary” case (such as when

17

counsel already has been found to have performed ineffectively at the preliminary

18

hearing), “no inquiry into” the “effectiveness” of counsel’s questioning at the

19

preliminary hearing is required), abrogated on other grounds by Crawford.

20

Unquestionably, Anaya’s preliminary hearing testimony read at Petitioner’s trial

21

was “testimonial” under the Confrontation Clause. As there is no issue here (or

22

raised in the state courts) as to Anaya’s unavailability, the Confrontation Clause

23

issue in this case turns on the prior opportunity for cross-examination prong. To

24

establish a Confrontation Clause violation on this basis, a petitioner must show “that

25

he was prohibited from engaging in otherwise appropriate cross-examination

26

designed to show a prototypical form of bias on the part of the witness” and that a

27

“reasonable jury might have received a significantly different impression of [the

28

witness’s] credibility had [defense] counsel been permitted to pursue his proposed
28

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 29 of 45 Page ID #:2977

1

line of cross-examination.” Van Arsdall, 106 S. Ct. at 1436.

2

Finally, even when there is a Confrontation Clause violation, it is subject to

3

harmless error analysis. Van Arsdall, 106 S. Ct. at 1438; Sully v. Ayers, 725 F.3d

4

1057, 1074 (9th Cir. 2013).

5
6
7

The State Court Decision
At the outset of its analyses of the above Brady and Confrontation Clause claims,

8

the California Court of Appeal noted the standards of review governing each claim.

9

The state appellate court’s description of these standards was consistent with the

10

foregoing clearly established Supreme Court precedent. (See Lodg. J at 12, 17.)

11

The California Court of Appeal turned first to the Brady claim, i.e., that the

12

prosecution violated Brady when it failed to disclose, before the preliminary

13

hearing, that Anaya had received witness relocation assistance payments. Citing

14

California decisions, the state appellate court opined that: (1) “[t]he prosecution’s

15

Brady obligation extends to the preliminary stage of criminal proceedings”; and (2)

16

“for preliminary hearings, ‘the standard of materiality is whether there is a

17

reasonable probability that disclosure of the exculpatory or impeaching evidence

18

would have altered the magistrate’s probable cause determination with respect to

19

any charge or allegation.’” (Lodg. J at 12-13; citations omitted.)

20

Turning to the merits of Petitioner’s Brady claim, the California Court of Appeal

21

first observed that “it is unclear whether evidence of witness relocation assistance is

22

favorable” within the meaning of the Brady obligation. (Lodg. J at 14.) Assuming

23

that the fact that Anaya received relocation assistance did constitute impeachment

24

evidence, the state appellate court concluded that there was no showing that the

25

evidence was material under Brady or had been suppressed at trial. (Id.)

26
27
28

As discussed above, for preliminary hearings,
evidence is material if “there is a reasonable probability
that disclosure of the exculpatory or impeaching evidence
would have altered the magistrate’s probable cause
determination with respect to any charge or allegation.”...
29

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 30 of 45 Page ID #:2978

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15

Here, it is undisputed that Anaya was shot in the head.
He identified appellants as his assailants to Detective
Carias, and the record shows that his identification was
made before any offer of assistance. In addition, Vargas,
Pacheco, and Barajas were identified from still
photographs taken from video surveillance at the time of
the incident. Finally, the relocation assistance was not
offered in exchange for testimony and was not dependent
on Anaya’s testifying at trial…. In short, appellants have
not shown there was a reasonable probability that the
evidence of witness relocation assistance would have
altered the magistrate’s probable cause determination.
Thus, no Brady violation occurred at the preliminary
hearing stage.
Similarly, appellants have not shown a Brady
violation at the trial stage. There was no suppression of
evidence because the jury heard about the relocation
assistance provided to Anaya…. After considering the
evidence, the jury found Anaya’s identification of
appellants credible and convicted them. On this record,
appellants cannot show a Brady violation.
(Lodg. J at 15; citations omitted.)
The California Court of Appeal then turned to the Confrontation Clause claim,

16

i.e., the argument that the admission of Anaya’s preliminary hearing testimony

17

violated the defendants’ right to confront him, because defense counsel did not have

18

an adequate opportunity for cross-examination. The state appellate court found no

19

constitutional error.

20
21
22
23
24
25
26
27

Appellants’ inability to cross-examine Anaya about
witness relocation assistance at the preliminary hearing
did not render their cross-examination constitutionally
inadequate. Anaya identified appellants as his assailants
prior to any offer of relocation assistance. Additionally,
at trial, appellants were able to cross-examine Detective
Carias about his payments to Anaya as part of the witness
relocation program. Thus, the jury was able to consider
the relocation assistance in determining Anaya’s
credibility. On this record, they failed to demonstrate any
confrontation clause violation.
(Lodg. J at 18.)

28
30

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 31 of 45 Page ID #:2979

1
2

The State Court Decision Is Entitled To Deference.
For the following reasons, the Court concludes that federal habeas relief is

3

foreclosed with respect to both the Brady and Confrontation Clause claims asserted

4

through Ground Three.

5
6

The Brady Claim
As noted earlier, under Section 2254(d)(1), federal habeas relief is foreclosed

7

unless the state court’s decision rejecting a claim was either contrary to, or an

8

unreasonable application of, clearly established Supreme Court precedent. Section

9

2254(d)(1) is not satisfied when there is no Supreme Court precedent to support a

10

federal habeas right to relief. “[I]n the absence of a Supreme Court decision that

11

‘squarely addresses the issue’ in the case before the state court . . ., or establishes an

12

applicable general principle that ‘clearly extends’ to the case,” it cannot be said that

13

clearly established federal law exists for purposes of either prong of Section

14

2254(d)(1), and a federal court must defer to the state court decision. Moses, 555

15

F.3d at 760 (citing, inter alia, Wright v. Van Patten, 128 S. Ct. 743, 745-47 (2008)

16

(per curiam), and Carey v. Musladin, 127 S. Ct. 649, 654 (2006)); see also Knowles

17

v. Mirzayance, 129 S. Ct. 1411, 1419 (2009) (under Supreme Court precedent, it is

18

not an unreasonable application of clearly established federal law “for a state court

19

to decline to apply a specific legal rule that has not been squarely established by”

20

the Supreme Court); Holley, 568 F.3d at 1097-98 (“[w]hen there is no clearly

21

established federal law on an issue, a state court cannot be said to have unreasonably

22

applied the law as to that issue”).

23

In resolving the Brady claim raised by Petitioner’s co-appellants, the California

24

Court of Appeal relied on state law decisions in concluding that a prosecutor’s

25

Brady obligation extends to the preliminary hearing stage of a criminal case. (Lodg.

26

J at 12.) The cases cited by the state appellate court (and, in turn, the decisions on

27

which those cases relied) rested on California law, not clearly established Supreme

28

Court precedent. Petitioner has not cited, and the Court is not aware of, any
31

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 32 of 45 Page ID #:2980

1

Supreme Court authority holding that due process is violated by a prosecutor’s

2

failure to disclose impeachment or exculpatory information prior to the preliminary

3

hearing. See Jaffe v. Brown, 473 Fed. Appx. 557, 559 (9th Cir. 2012) (“existing

4

Supreme Court case law does not clearly establish that the prosecution was required

5

to disclose the impeachment information about [a police officer who testified at the

6

preliminary hearing] before, rather than after, [the petitioner’s] preliminary

7

hearing,” and thus, the state courts did not unreasonably apply Supreme Court

8

precedent in rejecting a Brady claim such as Petitioner brings here); Jordan v. Cano,

9

No. CV 16-04975-JVS (AS), 2017 WL 1074364, at *25 (C.D. Cal. Feb. 15, 2017)

10

(rejecting Brady claim based on prosecutor’s failure, before the preliminary hearing,

11

to disclose letter to prosecution witness offering a plea bargain, because no Supreme

12

Court authority holds that a prosecutor commits misconduct by failing to disclose

13

Brady evidence prior to a preliminary hearing), adopted by 2017 WL 1054180

14

(March 20, 2017); Dvorak v. Figueroa, No. CV-12-5303 JFW (FFM), 2014 WL

15

4627382, at *7 (C.D. Cal. April 2, 2014) (rejecting Brady claim premised on

16

prosecutor’s failure to turn over various items of exculpatory evidence prior to the

17

preliminary hearing given that it was not supported by clearly established Supreme

18

Court precedent), adopted by 2014 WL 4639389 (Sept. 15, 2014). For this reason

19

alone, Petitioner’s Brady claim fails under Section 2254(d)(1).

20

Even if, however, it could be said that the general principle established in Brady

21

“clearly extends” to the preliminary hearing context, and thus, there is clearly

22

established federal law within the meaning of Section 2254(d)(1) that underlies

23

Petitioner’s Brady claim, the claim nonetheless fails for the reasons noted by the

24

state court when it addressed the claim on its merits. “The critical issue in any

25

Brady claim” is whether the undisclosed or belatedly disclosed information was

26

“material” to the outcome of the case, that is, whether the State's failure to disclose

27

the information earlier resulted in prejudice under Brady. Bailey, 339 F.3d at 1115.

28

With respect to materiality, the California Court of Appeal first looked to the
32

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 33 of 45 Page ID #:2981

1

materiality standard outlined in an earlier California decision, namely, whether there

2

is a reasonable probability that the disclosure of the evidence at issue would have

3

altered the magistrate judge’s probable cause determination. (Lodg. J at 12.)

4

Petitioner argues that this was a “diluted” standard under Brady and, thus, was

5

improper.

6

As noted earlier, the clearly established federal test for Brady materiality is

7

whether there is a reasonable probability that, had the evidence been disclosed ahead

8

of time, the result of the proceeding would have differed, which in turn requires

9

showing that the likelihood of a different result is great enough to undermine

10

confidence in the outcome of the proceeding. The Supreme Court has not

11

articulated any differing test for preliminary hearings, presumably because it never

12

has held that Brady requires pre-preliminary hearing disclosure. In this vacuum, the

13

California Court of Appeal applied the test found applicable by another state

14

appellate court. Under that standard, for Petitioner to state a Brady claim at all

15

(much less establish a right to relief), he necessarily must contend that, had the

16

prosecutor told his counsel – ahead of the preliminary hearing – that Anaya and his

17

family had received approximately $1,850 in witness relocation assistance as of the

18

preliminary hearing date, his counsel would have been able to use that information

19

to yield a beneficial result at the preliminary hearing. Put otherwise, under this

20

materiality test, Petitioner must show that, if the magistrate had before him or her

21

evidence that Anaya and his family had received these funds, there is a reasonable

22

probability that the magistrate would not have found probable cause to hold

23

Petitioner for trial. Petitioner has not shown this and cannot do so.

24

At the preliminary hearing, Anaya clearly and unequivocally identified Petitioner

25

and each of his co-defendants, including by their gang monikers, as his assailants.

26

Anaya described the scenario noted earlier, i.e., of being kept in the bathroom,

27

assaulted, kidnapped, and shot in the head by the four men, including Petitioner.

28

(CT 5-51.) Moreover, and critically, although Officer Carias had given Anaya a few
33

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 34 of 45 Page ID #:2982

1

small cash amounts for food at the conclusion of interviews conducted shortly after

2

the incident, Anaya already had identified Petitioner and two of his co-defendants as

3

his assailants before he received any of those small amounts and well before he

4

received the more substantial amounts of relocation assistance funds in response to

5

his expressed concern for his safety and that of his family.12 Significantly, the jury –

6

which heard the same Anaya testimony heard by the magistrate – found Petitioner

7

guilty under the beyond a reasonable doubt standard even though the jury actually

8

knew of all of the various payments made to Anaya. Thus, it is not reasonably

9

probable that the magistrate would have declined to find probable cause – a lower

10

standard than beyond a reasonable doubt – had the magistrate possessed this same

11

information regarding Anaya’s receipt of $1,850 in witness relocation assistance

12

before the preliminary hearing.
As noted earlier, the California Court of Appeal so found, reasoning that: no

13
14

dispute existed that Anaya had been shot in the head; Anaya had identified

15

Petitioner and two of the co-defendants before he received any offer of assistance;

16

Vargas, Barajas, and Pacheco had been identified from a surveillance video showing

17

Anaya’s abduction; and the relocation assistance had not been offered in exchange

18
19
20
21
22
23
24
25
26
27
28

12

After Anaya had been released from the hospital, Officer Carias interviewed
him on July 29, 2012. Anaya identified photographs of Pacheco and Petitioner as
two of the people who assaulted him (after identifying his assailants using their gang
monikers) and stated that he had been shot in the head by “Tico” (Vargas’s gang
moniker). (RT 2526-28, 2741-42, 2803-14, 3619-25, 3635-40.) The next day,
Anaya identified a photograph of Vargas and stated that Vargas had tied him down,
escorted him to the vehicle, told him to get on the floor, and dragged him out and
shot him. (RT 2519-24, 2836-38.) On August 2, 2012, Anaya identified a
photograph of Barajas and described his role. (RT 2524-25, 2838-43.)
Anaya did not receive any relocation assistance funds until August 16, 2012,
although Officer Carias gave him small amounts of cash for food on July 29, July
30, and August 2, 2012, and had paid for a motel room. The record shows that
Anaya did not receive any funds at all (including these small payments) until after
he already had identified Petitioner and co-defendants by their gang monikers and
had selected Petitioner’s photograph. (RT 3670-72, 3683.) The preliminary hearing
did not occur until October 16, 2012. (CT 1.)
34

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 35 of 45 Page ID #:2983

1

for testimony and was not contingent on Anaya testifying at trial. (Lodg. J at 15.)

2

This conclusion was objectively reasonable.

3

Critically, even if the regular Brady standard for trials is applied – namely,

4

whether there is a reasonable probability that, had the evidence been disclosed ahead

5

of time, the result of the trial would have differed – relief is not warranted. The

6

California Court of Appeal further concluded that Petitioner had “not shown a Brady

7

violation at the trial stage,” because the jury heard about the relocation assistance

8

payments made to Anaya and nonetheless found his identification of Petitioner and

9

his co-defendants to be credible and convicted them. (Lodg. J at 15.) That

10

conclusion also was objectively reasonable.

11

“Brady does not necessarily require that the prosecution turn over exculpatory

12

material before trial. To escape the Brady sanction, disclosure must be made at a

13

time when [the] disclosure would be of value to the accused.” United States v.

14

Aichele, 941 F.2d 761, 764 (9th Cir. 1991) (citation and internal punctuation

15

omitted; emphasis in original). The due process violation “may be cured, however,

16

by belated disclosure of evidence, so long as the disclosure occurs at a time when

17

disclosure would be of value to the accused.” United States v. Gamez-Orduño, 235

18

F.3d 453, 461 (9th Cir. 2000) (citation and internal punctuation omitted). The test is

19

whether “the lateness of the disclosure so prejudiced [the defendant’s] preparation

20

or presentation of his defense that he was prevented from receiving his

21

constitutionally guaranteed fair trial.” United States v. Miller, 529 F.2d 1125, 1128

22

(9th Cir. 1976) (emphasis in original). Due process requires only that disclosure be

23

made in sufficient time to permit the defendant to make effective use of the evidence

24

disclosed. LaMere v. Risley, 827 F.2d 622, 625 (9th Cir. 1987).

25

There is no question that: prior to trial, Petitioner’s counsel learned Anaya had

26

received witness relocation assistance; during trial, counsel learned of the amounts

27

of the payments made; and the jury thereafter was provided with evidence of such

28

payments through Officer Carias’s testimony described above. In short, the defense
35

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 36 of 45 Page ID #:2984

1

was able to make use at trial of the belatedly disclosed material. The question, of

2

course, is whether the defense was able to make effective use of this material despite

3

the delay in its disclosure.

4

Again, Petitioner was not the party who raised this Brady claim in the state

5

courts. Co-defendant Vargas was the appellant who raised it in the most substantial

6

manner, and thus, it is Vargas’s arguments that are pertinent here. Vargas

7

complained therein that he was not able to effectively use the witness relocation

8

assistance evidence, because he had not been able to impeach Anaya directly with

9

such evidence at the preliminary hearing. Vargas speculated that, because Anaya

10

had a deputy sheriff’s phone number stored in his cell phone, Anaya “may have

11

been working with law enforcement as an informant,” and then asserted that had the

12

witness relocation assistance information been disclosed before the preliminary

13

hearing, Vargas’s counsel could have questioned Anaya “about the links between

14

the monetary benefits and the law enforcement contacts.”

15

There is no evidence of record – nor is there any reason to suspect any exists –

16

indicating a possibility that Anaya was an informant and that the witness relocation

17

payments he received were disguised informant payoffs. Vargas’s argument rested

18

entirely on two simple facts: (1) before the crime occurred, Anaya’s cell phone

19

contained the phone number of a deputy sheriff; and (2) after the crime occurred and

20

Anaya had expressed concerns about safety, he received witness relocation

21

assistance. Not only did Vargas (and by incorporation Petitioner) make too great an

22

inferential leap from these bare facts, but he ignored the fact that Vargas’s counsel

23

did cross-examine Anaya at the preliminary hearing about this alleged informant

24

theory.

25

At the preliminary hearing, on direct examination, Anaya testified briefly that he

26

had taken the telephone number off a card provided by the deputy sheriff and stored

27

it several months earlier, because he knew the deputy sheriff wanted to ask him

28

some questions. (CT 19.) Vargas’s counsel thereafter cross-examined Anaya about
36

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 37 of 45 Page ID #:2985

1

this issue, and Anaya explained that: the deputy sheriff had gone to a location

2

looking for Anaya, indicating he wished to ask him some questions, and left his

3

business card; a friend gave the card to Anaya; and Anaya stored the number in his

4

cell phone and later called the deputy sheriff. (CT 55-56.) On further questioning

5

by Vargas’s counsel, Anaya explained in more detail that: previously, he had been

6

in a car with a friend named Blackie; a deputy sheriff pulled the car over and found

7

something illegal in it that belonged to Blackie; because Blackie had two strikes, he

8

asked Anaya to tell the deputy that the item belonged to him; Anaya did so and

9

admitted to counsel he had lied to law enforcement in doing so; Anaya was arrested

10

and later released from jail; the deputy sheriff thereafter left the card at the home of

11

a girl with whom Anaya was staying; and Anaya called the deputy sheriff back and

12

told him he did not have anything to discuss with him about anything and declined

13

to meet with him in person. (CT 57-59.) Vargas’s counsel asked Anaya if he had

14

agreed to work for the deputy sheriff and Anaya responded, “No.” (CT 59.)

15

In short, Vargas (and by extension Petitioner) had the same motive at the

16

preliminary hearing as he would have had at trial to cross-examine Anaya about

17

whether he was an informant for law enforcement, and Vargas actually did so at the

18

preliminary hearing. The jury heard that cross-examination testimony. (RT 2536-

19

41; see also RT 2491.) The record shows that there was no written agreement

20

between Anaya and law enforcement conditioning the witness relocation assistance

21

payments on serving as an informant or testifying at the trial of Petitioner and his

22

co-defendants; rather, Anaya agreed only to commit no further crimes. (Lodg. J at

23

13-14; RT 2767-68.) Critically, in all of his briefing in the state courts and here,

24

Vargas (and by extension Petitioner) never identified any additional questions that

25

he could have asked at the preliminary hearing – had he known of the witness

26

relocation payments made up to that date – which would have been likely to have

27

any impeaching effect. Given that Anaya had proffered a credible explanation for

28

why he had a deputy sheriff’s phone number in his cell phone and had denied being
37

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 38 of 45 Page ID #:2986

1

an informant, it defies belief that, had he been questioned about the witness

2

relocation assistance, Anaya would have “done a 180” and testified that, well yes, he

3

had been lying earlier and actually was an informant and the witness relocation

4

payments made by Officer Carias actually were his informant payments.

5

There simply is no tenable basis for concluding that, if any defense counsel had

6

known of the witness relocation payments at the time of the preliminary hearing, the

7

cross-examination of Anaya at that time could have yielded any evidence of

8

impeaching or exculpatory value. Indeed, the fact that Anaya was receiving witness

9

relocation because he was afraid for his safety and that of his family was not a fact

10

that aided the defense, and many a reasonable defense attorney would have

11

concluded that the fact of such payments was an evidentiary avenue best left

12

untouched. Vargas’s counsel chose otherwise and presented this evidence to the

13

jury, and the jury nonetheless convicted him and the three co-defendants, including

14

Petitioner. There is no reasonable probability that any questioning on the topic at

15

the preliminary hearing likely would have generated a different result at trial. In

16

particular, there is no reasonable basis for finding that the inability of Petitioner or

17

any of his co-defendants to cross-examine Anaya at the preliminary hearing about

18

the witness relocation assistance he had received at that time undermines confidence

19

in the jury’s verdict. Accordingly, no Brady violation occurred.

20

The state court’s decision on the Brady claim alleged in the Petition was an

21

objectively reasonable one, under the clearly established federal law and the

22

evidence of record. Accordingly, Section 2254(d)(1) precludes federal habeas relief

23

based on the Ground Three Brady claim.

24
25

The Confrontation Clause Claim

26

As raised by Petitioner’s co-defendants in the state courts, Ground Three

27

presents a claim that, due to the prosecutor’s failure to disclose that Anaya had

28

received approximately $1,850 in witness relocation assistance prior to the
38

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 39 of 45 Page ID #:2987

1

preliminary hearing, it was “impossible” for defense counsel to cross-examine

2

Anaya about the changes in his story following the crime as they may have occurred

3

in conjunction with payments he received from the police. Vargas argued that,

4

therefore, he “was not given an adequate opportunity to cross-examine Anaya with a

5

motive and interest similar to that at trial” and, thus, was deprived of his federal

6

right of confrontation. Presumably, Petitioner makes the same argument. (See

7

Petition Attachment C, arguing that the failure to disclose the witness relocation

8

assistance information prior to the preliminary hearing deprived Petitioner of the

9

opportunity to cross-examine Anaya and cast doubt on his version of events and

10
11

identification of Petitioner.)
Unquestionably, Petitioner’s counsel was unable to cross-examine Anaya at the

12

preliminary hearing on the topic of the witness relocation assistance payments he

13

received and any possible effect they had on his statements to police and his

14

preliminary hearing testimony, because counsel did not know that such payments

15

had occurred. This fact alone, however, is insufficient to show that Petitioner was

16

deprived of an opportunity to cross-examine Anaya effectively for Sixth

17

Amendment purposes.

18

As a result of the reading of Anaya’s preliminary hearing testimony into the

19

record and the direct and cross-examination of various police officer witnesses, the

20

jury at Petitioner’s trial learned of the following events:

21

The assault and shooting of Anaya occurred in the early morning hours of July

22

28, 2012. The first responding officer obtained Anaya’s name, address, and date of

23

birth but no other information before the paramedics took him to the hospital. (RT

24

2405-07, 2411-12.) Another officer at the scene tried to interview Anaya but found

25

Anaya to be uncooperative; he failed to give any clear answers. When the same

26

officer again attempted to interview Anaya at the hospital, Anaya made only

27

inconsistent, varying statements. (RT 2746-49.) Among other things, Anaya told

28

the officer that he had been with his “homies” and three of the men attacked him
39

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 40 of 45 Page ID #:2988

1

(including punching him, tying him up, dragging him to an alley, and shooting him),

2

and he provided descriptions for the three men. (RT 2756-64.) At the preliminary

3

hearing, on both direct and cross-examination, Anaya conceded that: he had refused

4

to talk to the police officers who first showed up at the hospital, because he did not

5

want to cooperate due to a fear of being killed by gang members; he gave them a

6

phony name and false information about the shooting; and he “lied” to the officers.

7

(RT 2731-32, 2737-39.)

8

Officer Carias was assigned to investigate the shooting and, on July 29, 2012,

9

went to the hospital and confirmed that Anaya was there. Carias transported Anaya

10

to the Rampart Station and interviewed him. (RT 2801-03.) To identify his

11

assailants, Anaya provided the gang monikers of Petitioner and his co-defendants,

12

and when Carias provided Anaya with the “gang book” (containing photographs of

13

gang members), Anaya identified photographs of Petitioner and co-defendant

14

Pacheco. However, Anaya said that he did not see a photograph of “Tico” (Vargas’s

15

gang moniker), although noted that he was “sleepy.” Vargas’s photograph was

16

contained in the gang book (in two spots), as was a photograph of co-defendant

17

Barajas. (RT 2804-14, 3619-30, 3634-40, 3643.) Anaya also told Carias where the

18

shooting occurred. (RT 2832.) Carias decided to put Anaya into a motel and

19

requested funds. Carias obtained a couple hundred dollars, paid the motel directly,

20

and gave Anaya $60 for food. Anaya signed an agreement in which he agreed not to

21

commit crimes. (RT 3650-53, 3670-71.)

22

The next day, July 30, 2012, Carias spoke with two departmental gang experts

23

about the “Tico” moniker Anaya had provided the day before, and they gave him

24

Vargas’s name. Carias prepared a photographic six-pack containing Vargas’s

25

photograph, and Anaya identified Vargas’s picture. (RT 2835-38.) Anaya testified

26

that he wrote down that the man in the photograph was the one who tied him down,

27

took him to the car, dragged him out of the car, and shot him in the head. (RT 2519-

28

24, 2825.) Carias gave Anaya $40 that day. (RT 3671.)
40

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 41 of 45 Page ID #:2989

1

Carias subsequently learned of co-defendant Barajas’s name. On August 2,

2

2012, Carias again interviewed Anaya and Anaya identified a photograph of

3

Barajas. (RT 2838-43.) Anaya testified about the identification and what he told

4

Carias about Barajas’s actions. (RT 2524-25.) Carias subsequently gave Anaya

5

$293 that day. (RT 3672.)

6

The jury, thus, had before it – through Anaya’s testimony and that of Carias –

7

evidence that although Anaya initially declined to identify his assailants, when

8

interviewed by Carias the next day at the police station, Anaya identified all four

9

perpetrators (including Petitioner) by their gang monikers as well as specifically

10

selected the photographs of Petitioner and a co-defendant. This identification of

11

Petitioner occurred before Anaya had received any payment of any kind. This

12

undisputed piece of evidence alone renders the Confrontation Clause argument

13

raised through Ground Three toothless as to Petitioner and dooms the claim.

14

Critically, Petitioner has never contended that the prosecution suppressed

15

evidence of Anaya’s varying statements to law enforcement officers following his

16

shooting. Not only is there is no evidence that such evidence was suppressed, the

17

questioning that occurred at the preliminary hearing shows that it was known to

18

defense counsel. Given that Anaya was the sole percipient witness against

19

Petitioner at the preliminary hearing, Petitioner possessed the same motive at that

20

time to question him thoroughly as he would have had at trial, namely, to attack his

21

credibility to a degree that the magistrate judge would not deem Anaya’s testimony

22

sufficient to support a probable cause finding (or a guilty verdict in the instance of a

23

trial). As the evidence of Anaya’s varying statements was available to Petitioner’s

24

counsel before the preliminary hearing, he could have questioned Anaya effectively

25

at the preliminary hearing about any changes in his statements to police from the

26

date of the shooting through and up until the date of the preliminary hearing and,

27
28
41

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 42 of 45 Page ID #:2990

1

critically, asked Anaya why his statements varied, but did not so do.13 In fact,

2

Vargas’s counsel did begin questioning Anaya about the various police officers he

3

spoke to and what he said to each, and Anaya conceded he had told “different

4

stories” to various officers prior to speaking to Carias (CT 66-70); however, after a

5

hearing break, counsel opted to not ask any further questions at all (CT 72). Given

6

the evidence available to Petitioner’s counsel prior to the preliminary hearing and

7

Anaya’s concession at the hearing that his “stories” had varied over time, Petitioner

8

plainly had the motive and opportunity to cross-examine Anaya effectively at the

9

preliminary hearing about the variances in Anaya’s statements to police and the

10

reasons for such discrepancies, but simply failed to do so. The Confrontation

11

Clause, however, requires only a prior opportunity for an effective cross-

12

examination, not that the defendant have made prudent use of it.

13

The fundamental defect in the Confrontation Clause argument proffered through

14

Ground Three is that it rests on the proposition that it was “impossible” for

15

Petitioner to cross-examine Anaya about why his statements to police varied over

16

time. For the reasons noted above, that premise is factually unsound. Anaya

17

admittedly gave police officers at the scene and at the hospital varying stories –

18

indeed, he conceded he “lied” to them – because he was afraid of gang retaliation

19

and did not want to cooperate. When Anaya was released from the hospital the next

20

day and then interviewed at the police station, he gave Carias the gang monikers of

21

all four assailants and identified Petitioner’s photograph, and this happened before

22

Carias decided to and thereafter requested “emergency funds” and provided any

23

payment to Anaya. (RT 3650-53) Providing those gang monikers as well as

24

selecting Petitioner’s photograph was tantamount to identifying his attackers by

25
26
27
28

13

Petitioner’s counsel cross-examined Anaya at length about his selection of
Petitioner’s photograph and advice to Carias of Petitioner’s “Little Man” gang
moniker, as well as questioned him more briefly about the events of the night in
question leading up to the shooting of Anaya. (CT 72-87, 111-12.)
42

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 43 of 45 Page ID #:2991

1

name, as Carias readily ascertained the names of Petitioner and his co-defendants

2

based on the monikers Anaya had provided, yet Anaya did so without having been

3

promised payment.

4

Under these circumstances, it was not objectively unreasonable for the state court

5

to find that no Confrontation Clause violation occurred. The jury had before it the

6

inconsistent statements made by Anaya, the dates on which they were made, and the

7

dates on which he received payments. The jury was positioned to consider the

8

effect of such payments on Anaya’s credibility. “Whatever pro-prosecution bias

9

might flow from that fact alone was plainly revealed” to the jury. Hayes v. Ayers,

10

632 F.3d 500, 518 (9th Cir. 2011) (no Confrontation Clause violation in preclusion

11

of testimony by prosecution witness’s attorney regarding the witness’s immunity

12

deal and whether she had actively sought immunity, notwithstanding petitioner’s

13

contention that the evidence would have exposed the witness’s bias and motive to

14

deliver testimony favorable to the prosecution, because the jury was well aware the

15

witness had immunity and the “fact of having immunity at all provided most of the

16

reason that jurors might view [her] testimony skeptically”).

17

For all these reasons, the Court concludes that the state court’s rejection of

18

Petitioner’s Confrontation Clause claim was neither contrary to, nor an unreasonable

19

application of, clearly established Supreme Court precedent. As a result, Section

20

2254(d) forecloses federal habeas relief. But even if, arguendo, fairminded jurists

21

would conclude otherwise – namely, would agree that the state court’s decision was

22

so lacking in justification that there could be no fairminded disagreement and all

23

would find “an error well understood and comprehended in existing law,” Richter,

24

131 S. Ct. at 786-87 – any finding of a Confrontation Clause violation remains

25

subject to harmless error analysis. “[I]n § 2254 proceedings a court must assess the

26

prejudicial impact of constitutional error” under the Brecht standard. Fry, 127 S. Ct.

27

at 2328 (citing Brecht, supra). Thus, any Confrontation Clause error in admitting

28

Anaya’s preliminary hearing testimony will be deemed harmless unless the
43

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 44 of 45 Page ID #:2992

1

admission had a substantial and injurious effect or influence in determining the

2

jury’s verdict. Brecht, 113 S. Ct. at 1722. In the Ninth Circuit, when considering

3

whether a Confrontation Clause error was harmless, some courts have looked to

4

factors enunciated by the Supreme Court in Van Arsdall, supra – which include the

5

importance of the testimony, whether the testimony was cumulative, the presence or

6

absence of evidence corroborating or contradicting the testimony, the extent of

7

cross-examination permitted, and the overall strength of the prosecution’s case – and

8

others have not and simply have performed a more generalized Brecht analysis.14

9

Whatever mode of harmless error analysis is performed here, any error was

10

harmless under Brecht.
Regardless of Anaya’s preliminary hearing testimony, the jury had before it

11
12

ample evidence upon which to find Petitioner guilty. As the California Court of

13

Appeal observed, there is no dispute that Anaya was shot in the head and called 911,

14

after which police arrived and Anaya was taken to a hospital and treated. As

15

described earlier, Officer Carias testified that he interviewed Anaya after his release

16

from the hospital, before any offer of relocation assistance had been made, and

17

Anaya said that Little Man (Petitioner’s gang moniker) was one of his assailants and

18

also selected Petitioner’s photograph. Carias testified that Anaya told him where the

19

shooting had occurred and took him there. (RT 2832-37.) Officers testified that

20

Petitioner attempted to flee, and tossed away a loaded gun, when the officers sought

21

to stop and arrest him. (RT 1928-38, 3708-10.) The jurors were instructed that a

22
23
14

24
25
26
27
28

See Van Arsdall, 106 S. Ct. at 1438 (setting forth factors that may be
considered). Van Arsdall predates AEDPA and, moreover, noted these factors in the
direct appeal, rather than habeas, context while applying the Chapman v. California,
87 S. Ct. 824 (1967) standard for assessing harmless error on direct appeal. Since
then, the Supreme Court repeatedly had made clear that, in federal habeas review,
harmless error is assessed under the Brecht standard. See, e.g., Davis v. Ayala, 135
S. Ct. 2187, 2197 (2015). The Ninth Circuit, however, has opined that “there is
nothing in the opinion or logic of Van Arsdall that limits the use of these factors to
direct review.” Whelchel v. Washington, 232 F.3d 1197, 1206 (9th Cir. 2000).
44

APPENDIX B

Case 2:16-cv-00889-VBF-GJS Document 18 Filed 11/19/18 Page 45 of 45 Page ID #:2993

1

defendant’s flight may show consciousness of guilt. (CT 462.) Finally, Petitioner

2

did not testify nor did he present any defense witnesses and, thus, did not rebut the

3

above evidence of his guilt of the charged crimes.

4

In short, the evidence – independent of Anaya’s preliminary hearing testimony

5

– was sufficient for the jury to find Petitioner guilty. In light of such evidence of

6

Petitioner’s guilt, the admission of Anaya’s preliminary hearing testimony did not

7

have a substantial or injurious effect or influence on the jury’s verdict. Accordingly,

8

even if it was constitutional error to admit Anaya’s preliminary hearing testimony at

9

trial (and the Court does not believe it was), the error was harmless under Brecht

10

and, therefore, cannot serve as a basis for federal habeas relief.

11
12
13

RECOMMENDATION
For all of the foregoing reasons, IT IS RECOMMENDED that the Court issue an

14

Order: (1) accepting this Report and Recommendation; (2) denying the Petition;

15

and (3) directing that Judgment be entered dismissing this action with prejudice.

16

DATED: November 19, 2018

17

__________________________________
GAIL J. STANDISH
UNITED STATES MAGISTRATE JUDGE

18
19
20
21

NOTICE

22

Reports and Recommendations are not appealable to the United States Court of

23

Appeals for the Ninth Circuit, but may be subject to the right of any party to file

24

objections as provided in the Local Civil Rules for the United States District Court

25

for the Central District of California and review by the United States District Judge

26

whose initials appear in the docket number. No notice of appeal pursuant to the

27

Federal Rules of Appellate Procedure should be filed until the District Court enters

28

judgment.
45

APPENDIX B

Court of Appeal, Second Appellate District, Division Four - No. B252948

8228219

IN THE SUPREME COURT OF CALIFORNIA
En Banc
THE PEOPLE, Plaintiff and Respondent,

v.
CARLOS VARGAS et al., Defendants and Appellants.
The petitions for review are denied.
SUPREME COURT

FILED
. OCT:2 1 2015
Frank A. McGuire Clerk
Deputy

CANTIL-SAKAUYE
ChiefJustice

APPENDIX C

Filed 7/14/15 P. v. Vargas CA2/4

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FOUR

THE PEOPLE,

B252948

Plaintiff and Respondent,

(Los Angeles County
Super. Ct. No. BA401305)

v.
CARLOS VARGAS et al.,
Defendant and Appellant.

APPEAL from a judgment of the Superior Court of Los Angeles County,
William N. Sterling, Judge. Affirmed.
Allison H. Ting, under appointment by the Court of Appeal, for Defendant
and Appellant, Carlos Vargas.
Stephen M. Hinkle, under appointment by the Court of Appeal, for
Defendant and Appellant, Adrian Barajas.
Theresa Osterman Stevenson, under appointment by the Court of Appeal, for
Defendant and Appellant, Joseph A. Pacheco.
Ava R. Stralla, under appointment by the Court of Appeal, for Defendant
and Appellant, Douglas Cornejo.

APPENDIX C

Kamala D. Harris, Attorney General, Gerard A. Engler, Chief Assistant
Attorney General, Lance E. Winters, Assistant Attorney General, Steven D.
Matthews and David E. Madeo, Deputy Attorneys General, for Plaintiff and
Respondent.
___________________________________________

INTRODUCTION
Appellants Carlos Vargas, Adrian Barajas, Joseph A. Pacheco, and Douglas
Cornejo appeal from judgments and sentences following their convictions for
kidnapping and attempted murder. They contend the trial court erred in admitting
the preliminary hearing testimony of the victim, on the grounds (1) that the
prosecution violated its obligations under Brady v. Maryland (1963) 373 U.S. 83
(Brady) by failing to disclose impeachment evidence until after the preliminary
hearing, and (2) that the admission of the preliminary hearing testimony violated
their rights to confront and cross-examine the witness. They also contend the trial
court erred in denying a defense request for a delayed discovery instruction.
Cornejo separately contends that the trial court abused its discretion in excluding
two exculpatory statements on the basis of hearsay. Finally, Cornejo and Pacheco
contend there was insufficient evidence to support certain convictions and
sentencing enhancements. Finding no reversible error, we affirm.

PROCEDURAL HISTORY
Appellants were each charged in an amended information with attempted
willful, deliberate, and premeditated murder of Valentin Anaya (Pen. Code,

2

APPENDIX C

1

§§ 664/187, subd. (a); count 1), and kidnapping Anaya (§ 207, subd. (a); count 3).
As part of a separate incident, Cornejo was charged with having a concealed
firearm on his person (§ 25400, subd. (a)(2); count 7). It was alleged the offenses
were committed for the benefit of a criminal street gang (§ 186.22,
subd. (b)(1)(C)). It was further alleged that Vargas personally and intentionally
discharged a firearm which caused great bodily injury (§ 12022.53, subds. (b), (c),
& (d)); that a principal personally and intentionally discharged a firearm (§
12022.53, subds. (b), (c), (d) & (e)(1)); and that Cornejo personally used a firearm
(§ 12022.53, subd. (b)).
Pacheco and Vargas were also charged with possession of a firearm by a
felon (§ 29800, subd. (a)(1); counts 5 & 9). Vargas was alleged to have suffered
one prior conviction within the meaning of the “Three Strikes Law” (§§ 667,
subds. (b)-(i), 1170.12, subds. (a)-(d)), and three prior convictions for which he
served a term in state prison (§ 667.5, subd. (b)). Finally, Pacheco was alleged to
have suffered two prior convictions for which he served a prison term (§ 667.5,
subd. (b)).
A jury found appellants guilty as charged, and found true the firearm and
gang allegations. Vargas admitted the prior strike allegation and serving two prior
prison terms. Pacheco admitted one prior prison term, and the court struck the
other prior.
The trial court sentenced Vargas to a total term of 68 years to life in state
prison; Barajas to a total term of 32 years to life; Cornejo to a total term of 39
years to life; and Pacheco to a total term of 36 years to life.
Appellants each filed a notice of appeal.

1

All further statutory citations are to the Penal Code, unless otherwise stated.
3

APPENDIX C

FACTUAL BACKGROUND
A.

The Prosecution Case
According to the prosecution, appellants were members of the Rockwood

criminal street gang. After obtaining information leading them to believe that a
fellow gang member, Anaya, was an informant for law enforcement, appellants
kidnapped Anaya, took him to an alley, and shot him in the head. Anaya survived
the shooting, and subsequently identified appellants as his assailants.
1.

Anaya’s Preliminary Hearing Testimony

Trial proceedings started August 30, 2013. After Anaya invoked his Fifth
Amendment rights and declined to testify at trial, the trial court declared him
unavailable. His October 16, 2012 preliminary hearing testimony was then read
into the record. The testimony was as follows:
In 2012, Anaya had been a member of the Rockwood gang for several years.
2

Appellants were fellow gang members. On July 28, at about 8:00 p.m., Anaya
went to Vargas’s apartment to collect the money Vargas owed him for drugs.
Appellants were the only occupants. Anaya had two or three guns on him. In
exchange for $100, he gave appellants one of the guns -- a .357-caliber revolver.
When Anaya went to the bathroom, he left his cell phone in the apartment to
charge. Vargas took Anaya’s cell phone and looked through the contacts. Among
the contacts was a sheriff deputy’s number. Anaya had stored the deputy’s phone
number on his phone after the deputy had approached him in May 2012 to ask him
some questions. At the preliminary hearing, Anaya admitted calling the deputy,
but denied agreeing to work for him.

2

Anaya did not know appellants’ real names, but knew their gang monikers:
Vargas was “Tico,” Barajas was “Chubbs,” Cornejo was “Little Man,” and
Pacheco was “Stomper.”
4

APPENDIX C

When Anaya came out of the bathroom, Vargas told him to go back inside.
Cornejo, who was armed with a gun, told Anaya to stay in the bathroom and
locked him inside. After about an hour, Vargas entered and asked Anaya, “Who
are you working for?” Anaya replied, “What? What are you talking about?”
Vargas repeated: “Who are you working for?” He then said, “You fucked up,”
and stepped outside. Barajas entered, told Anaya that he had “fucked up,” and
struck him in the face. Cornejo and Pacheco then entered the bathroom separately
and struck Anaya in the face.
Barajas came back and told Anaya to get in the tub. Vargas and Pacheco
then entered. Vargas had the .357 gun and Pacheco was armed with a .45-caliber
handgun. Vargas then injected Anaya with methamphetamine. Vargas tied
Anaya’s hands behind his back with shoelaces, placed a hooded sweatshirt over his
head, and led him out of the apartment to a green truck parked outside. Vargas,
Cornejo, and Anaya got into the truck. Anaya could not see the driver. Pacheco,
who was wearing a Global Positioning System (GPS) tracking device as a
3

condition of parole, stayed behind in the apartment. Anaya did not know
Barajas’s location. When shown still pictures from a video surveillance of the
building taken at the time, Anaya identified the men in the picture as Vargas,
Pacheco, and Barajas.
After about an hour, the truck stopped near an alley. Cornejo exited, and
Vargas pulled Anaya out of the vehicle. Vargas ordered Anaya to go to a corner of
the alley, but Anaya started to run away. Vargas took out the .357 handgun and
shot Anaya in the head. The bullet entered the left side of Anaya’s head and exited
the top. Cornejo took out his gun and attempted to shoot Anaya, but the gun
3

The location data from Pacheco’s tracking device showed he entered the
apartment at 7:05 p.m., and remained there until 6:39 a.m. the next morning.
5

APPENDIX C

jammed. Anaya fell to the ground and pretended to be dead. Vargas said, “He’s
gone.” Vargas and Cornejo then re-entered the truck. Anaya, afraid the truck
would run him over, got up to run away. The truck driver tried to run him down.
The side of the truck’s bumper struck Anaya, sending him flying into a trash can.
Anaya got up and started running. He heard several gunshots and dropped to the
ground. The truck drove away. Anaya went to a store and called 911 at 4:52 a.m.
He was taken to a hospital, treated, and released.
Anaya was questioned by police officers, but he provided them with
“different stories so I could just get them off my back.” After Anaya was released
from the hospital, he agreed to speak with Los Angeles Police Detective Carlos
Carias. Detective Carias interviewed Anaya at the police station, and showed him
photographs in a Rockwood gang photobook. Anaya identified Vargas’s
photograph and wrote: “This individual was the one who shot me in the head,
number 3. Tico [Vargas] is the one who tied me down and escorted me to the
vehicle. I was told by him to get on the floor. Once arriving . . . at the alley, I was
dragged out and shot by Tico.” He also identified photographs of Pacheco and
Cornejo, writing: “Stomper [Pacheco] number 210, Little Man [Cornejo] number
211 were involved in the crime of laying hands on me before I got shot in the head.
I received a few blows from these individuals and had a gun pointing at my head.
Little Man got -- Little Man’s gun got jammed in the alley. So that’s why I only
got one shot in the head by Tico.”
On August 4, 2012, Anaya identified Barajas’s photograph and wrote: “This
individual in photo six I know him as Chubbs from Rockwood for several years.
Chubbs took me with Tico. And I got beat up. Later that night I was shot in the
alley. Chubbs was the first one who said I fucked [up].”
Anaya also identified appellants as his assailants at the preliminary hearing.

6

APPENDIX C

2.

Other Trial Testimony

At the trial, Los Angeles Police Officer John Boverie testified that at
approximately 4:55 a.m. on July 28, he responded to a call of a shooting. Arriving
at the scene, he observed Anaya sitting on a chair, holding a towel to his head.
Anaya had a gunshot wound to the left portion of his head and a shoe string tied to
his right wrist. He did not respond to Officer Boverie’s inquiries about who had
shot him. The paramedics then arrived and took Anaya to the hospital.
Los Angeles Police Officer Ramon Gracia testified that he also responded to
Anaya’s 911 call. When he arrived, he observed a male Hispanic bleeding
profusely from his head. When questioned, Anaya was uncooperative and
provided inconsistent explanations for his injuries. When Anaya was taken to the
hospital, Officer Gracia followed and interviewed him at the hospital. After
providing several versions of the events, Anaya told Officer Gracia that he would
tell him the truth. Anaya stated that he had gone with some of his “homies” to
purchase beer. After they purchased the beer, they began driving to a different
location. While in the car, one of his homies punched him and another
overpowered him and tied his hands behind his back. The car eventually stopped
at an alley, and one of his homies grabbed him and started to drag him into the
alley. Another homie then drew a .357 and shot him. Anaya fell to the ground and
pretended to be dead. After the men left him, he got up and began to run. As he
was running, the car struck him. Anaya told Officer Gracia that he was an active
gang member, and that he thought he was shot because his homies thought he was
a “rat.”
Detective Carias testified that he was assigned to investigate the shooting.
He was informed that the victim had been checked into a hospital, and that the
victim had identified himself as Rogelio Garcia. After determining that the

7

APPENDIX C

victim’s real name was Valentin Anaya, the detective interviewed Anaya at the
police station. In addition to identifying appellants as his assailants, Anaya also
provided information about the location of the shooting.
Detective Carias also testified that at one point, Anaya said he did not know
the name of the driver of the green truck. At another point, Anaya said he knew
the name of the driver, but would say only that the driver was a Rockwood gang
member. Anaya also told the detective that as he was being taken from Vargas’s
apartment to the truck, he saw a Rockwood gang member by the name of
“Cricket.”
After Anaya told Detective Carias that he was afraid for his safety and for
his family’s safety, the detective moved Anaya and his family to a “safe house.”
Detective Carias paid for the motel directly with emergency funds, and he gave
Anaya additional money for food. In order to receive the money, Anaya signed a
form stating that he would not commit any crimes. Detective Carias testified that
he gave Anaya $60 in cash on July 29, and $40 on July 30. On August 16th and
September 16th, the detective gave Anaya $350 for food. On October 16th, he
gave Anaya $350 for food and $300 for incidentals. On December 4th, he gave
Anaya $1100 for food and $225 for incidentals. Finally, on January 4, 2013, he
gave Anaya $1100 for food. The food allowance was for both Anaya and his
family. In total, including the housing assistance, $7,750 was provided to Anaya
and his family.
After Detective Carias interviewed Anaya, he visited Vargas’s apartment
building and looked at surveillance video taken at the time of the incident. The
detective used his cell phone to capture the surveillance video and to take still
photographs of the video. On August 8, Detective Carias showed the surveillance

8

APPENDIX C

video to Los Angeles Police Detective Antonio Hernandez. Detective Hernandez
recognized Vargas in the video from prior contacts with him.
The next day, while driving around Rockwood gang territory looking for the
shooting suspects, Detective Hernandez and his partner, Officer Philip Zalba, saw
Vargas. Vargas saw the officers and ran away, eventually entering a swap meet or
flea market. When Vargas exited the business, Detective Hernandez was waiting
outside and apprehended him. The detective searched Vargas, and found a small
bag of ammunition on his person, containing fifteen .357-caliber bullets. Inside a
hole in the wall of the flea market, police officers recovered a loaded .357 revolver.
Immediately after Vargas was arrested, Detective Hernandez learned that
Barajas was next door, inside a cell phone store. The officers arrested Barajas
there.
Pacheco and Cornejo were arrested the following weeks. On August 14th,
Los Angeles Police Officer Arthur Meza observed Pacheco and noticed he was
wearing a GPS tracking device, indicating he was on parole. Officer Meza and his
partner approached Pacheco to initiate a parole search. As the officers approached,
Pacheco placed one of his arms into his waistband, and grabbed a woman, placing
her between himself and the officers. Pacheco said, “I don’t want to do this.” The
officers ordered him to let the woman go, but Pacheco refused. The officers
sprayed Pacheco with pepper spray, but Pacheco attempted to hide his face in the
woman’s hair. Officer Meza’s partner then tackled Pacheco and took him to the
ground. As he fell, Pacheco released the woman. He resisted for about 15
seconds. After he was handcuffed, Pacheco indicated he was in possession of a
firearm. The officers recovered a loaded .45-caliber semiautomatic handgun from
Pacheco’s front waistband.

9

APPENDIX C

On August 22, Detective Hernandez saw Cornejo walking in Rockwood
gang territory. When Cornejo noticed the officer, he ran away in the opposite
direction. As he was being chased, Cornejo threw a revolver over his head.
Cornejo was apprehended after tripping on the stairs. The handgun was recovered;
it was a Smith and Wesson chrome .22-caliber revolver, loaded with six bullets.
Los Angeles Police Officer Michael Chang testified he interviewed Cornejo
4

after his arrest. After waiving his Miranda rights, Cornejo told the officer that he
had stolen the .22-caliber handgun from another Rockwood gang member, whom
he did not like. He had taken it from “some bushes.” Cornejo stated that he
needed the handgun for protection because he had been “jumped out of Rockwood
Street [gang] and . . . had been in a fight in juvenile hall with some juvenile.”
In February 2013, Anaya was arrested for possession of an assault rifle. He
told Officer Joseph Villagran that he had purchased the rifle for protection against
the Sinaloa Cartel. He explained that he had lost a pound of methamphetamine
belonging to the Sinaloa Cartel, and that a “hit” had been placed on him. Several
days later, Officer Bobby Romo interviewed Anaya. During this interview, Anaya
provided a different explanation for his possession of the rifle. Anaya said that in
July 2012, his fellow gang members had tried to kill him because they believed he
was a “rat.” He stated: “I bought myself a gun for protection after I was shot in
the head by former gang members.”
Detective Hernandez testified as the prosecution gang expert. Detective
Hernandez personally knew Vargas, Pacheco, and Cornejo to be members of the
Rockwood gang; they had admitted to him that they were gang members. Vargas
was known by the gang moniker, “Tico” or “Tiko.” Pacheco was known by the
gang monikers, “Stomper” and “Thumper.” Cornejo was known by the gang
4

Miranda v. Arizona (1966) 384 U.S. 436.
10

APPENDIX C

monikers, “Clash” and “Baby Tiny.” Although Detective Hernandez never had
any personal contact with Barajas, Detective Hernandez opined that Barajas was a
Rockwood gang member based on his gang tattoos and Anaya’s statements.
Given a hypothetical fact pattern based on the facts of this case, Detective
Hernandez opined that the kidnapping and attempted murder of a suspected gang
informant was committed for the benefit of and in association with the Rockwood
criminal street gang. The assailants were all gang members from the same gang,
and the crimes would benefit the gang because they would discourage other gang
members from working with law enforcement. Detective Hernandez also opined
that when Cornejo was arrested on August 22, he possessed the .22-caliber
handgun for the benefit of a criminal street gang, because having a gang member
with a gun in gang territory would allow the gang to protect its territory from rival
gangs. The detective also explained that a gang would have easily accessible and
hidden places to store guns -- such as a bush -- for gang members to use. He also
opined that only gang members would know these locations.
B.

The Defense Case
Appellants did not testify. Dr. Mitchell Eisen, a psychologist, testified on

behalf of Cornejo. Dr. Eisen testified about possible flaws in a witness’s
identification of suspects due to factors such as traumatic stress.

DISCUSSION
Appellants contend they were denied a fair trial because (1) the prosecution
committed various Brady violations; (2) they were denied their right to confront
and cross-examine Anaya about witness relocation assistance and his fear of the
Sinaloa drug cartel; and (3) the trial court erred in denying their request for an
instruction on the delayed disclosure of Brady evidence.

11

APPENDIX C

Pacheco separately contends there was insufficient evidence to support the
jury’s finding that he aided and abetted in the kidnapping and attempted murder of
Anaya. Cornejo separately contends there was insufficient evidence to support the
jury’s findings that he stole the .22 handgun from a Rockwood gang member and
at the same time that he possessed the handgun to benefit the Rockwood gang.
Cornejo also contends that the trial court abused its discretion by excluding two
hearsay statements of Anaya that he saw another gang member -- with the moniker
Cricket -- when he was being kidnapped.

A.

Purported Brady Violations
Suppression of favorable evidence that is material, either to guilt or

punishment, violates due process. (Brady, supra, 373 U.S. at p. 87; accord,
Strickler v. Greene (1999) 527 U.S. 263, 281-282.) Evidence is “favorable” to the
defense “if it helps the defense or hurts the prosecution, [such] as by impeaching a
prosecution witness.” (People v. Zambrano (2007) 41 Cal.4th 1082, 1132,
overruled on other grounds by People v. Doolin (2009) 45 Cal.4th 390, 421,
fn. 22.) “Evidence is material if there is a reasonable probability its disclosure
would have altered the trial result.” (People v. Zambrano, supra, at p. 1132.) No
Brady violation occurs if the previously suppressed evidence is presented at trial.
(People v. Verdugo (2010) 50 Cal.4th 263, 281.)
The prosecution’s Brady obligation extends to the preliminary stage of
criminal proceedings. (People v. Gutierrez (2013) 214 Cal.App.4th 343, 348.)
However, for preliminary hearings, “the standard of materiality is whether there is
a reasonable probability that disclosure of the exculpatory or impeaching evidence
would have altered the magistrate’s probable cause determination with respect to
any charge or allegation.” (Bridgeforth v. Superior Court (2013) 214 Cal.App.4th

12

APPENDIX C

1074, 1087.) “In addition, . . . the duty of prepreliminary hearing disclosure
extends only to matters within the possession or control of the prosecution team
before the conclusion of the preliminary hearing.” (Ibid.) “We independently
review the question whether a Brady violation has occurred, but give great weight
to any trial court findings of fact that are supported by substantial evidence.”
(People v. Letner and Tobin (2010) 50 Cal.4th 99, 176.)

1.

Witness Relocation Assistance

Appellants contend the prosecution violated Brady when it failed to disclose
that Anaya had received witness relocation assistance until after the preliminary
hearing.
a.

Relevant Factual Background

After the October 16, 2012 preliminary hearing but before trial, defense
counsel were informed that Anaya had received relocation assistance. The
prosecution did not provide the actual documentation of the assistance until after
Anaya’s prior testimony had been read to the jury. After reviewing the
documentation, the trial court concluded that “the only thing that is relevant and
the only thing that’s potentially exculpatory or otherwise relevant is an itemization
of how much was paid.” The court ordered the prosecutor to turn over to the
defense a copy of the documents under seal and an itemization of the amounts and
dates of the relocation assistance.

5

5

Appellants have requested that this court independently review the sealed
exhibits for any exculpatory or impeachment evidence. Although the sealed
exhibits could not be located, the record indicates that defense counsel received a
copy of “exactly what the [trial] court reviewed.” The prosecution and defense
counsel then redacted the exhibits to provide them to the jury.
13

APPENDIX C

When the documents were provided to defense counsel, Vargas’s counsel
asked whether Anaya had signed any documents, either to receive the money or to
work as an informant. The prosecutor responded that Anaya had to sign an
agreement to receive the money, but that he was unaware of any agreement
showing Anaya was an informant for any law enforcement agency. Defense
counsel asked the court to review the signed agreement, and suggested that the
agreement may have required Anaya to commit no further crimes. The court
agreed, but stated its belief that an agreement to commit no further crimes would
not be exculpatory.
As detailed above, defense counsel elicited trial testimony from Detective
Carias about the relocation assistance provided to Anaya. Specifically, Detective
Carias testified that Anaya signed a document agreeing to commit no further
crimes in exchange for the assistance, and that a total amount of $7,750 was
provided to Anaya and his family. In addition, during closing, Vargas’s counsel
argued that although Anaya may have been a trustworthy witness because he was
afraid of his fellow gang members, “[i]t’s just as likely he was a con man and knew
the system, and tried to rip the system off of $8,000.”
b.

Analysis

In order to demonstrate that the prosecution violated its Brady obligations,
appellants must show a suppression of evidence that was both favorable and
material. Here, it is unclear whether evidence of witness relocation assistance is
favorable. (Compare United States v. Davis (5th Cir. 2010) 609 F.3d 663, 696
[information that witness was offered witness protection not favorable to defendant
because jury may have assumed that witness needed protection from defendant]
with United States v. Talley (6th Cir. 1999) 164 F.3d 989, 1003 [noting that
relocation benefit for key government’s witness should be disclosed as

14

APPENDIX C

impeachment evidence].) Even assuming that evidence that Anaya received
relocation assistance constituted impeachment evidence, appellants have failed to
show that the evidence was material, or that it was suppressed at trial.
As discussed above, for preliminary hearings, evidence is material if “there
is a reasonable probability that disclosure of the exculpatory or impeaching
evidence would have altered the magistrate’s probable cause determination with
respect to any charge or allegation.” (Bridgeforth v. Superior Court, supra,
214 Cal.App.4th at p. 1087.) Here, it is undisputed that Anaya was shot in the
head. He identified appellants as his assailants to Detective Carias, and the record
shows that his identification was made before any offer of assistance. In addition,
Vargas, Pacheco, and Barajas were identified from still photographs taken from
video surveillance at the time of the incident. Finally, the relocation assistance was
not offered in exchange for testimony and was not dependent on Anaya’s testifying
at trial. (Cf. People v. Westmoreland (1976) 58 Cal.App.3d 32, 44-46 [leniency
offered in exchange for testimony].) In short, appellants have not shown there was
a reasonable probability that the evidence of witness relocation assistance would
have altered the magistrate’s probable cause determination. Thus, no Brady
violation occurred at the preliminary hearing stage.
Similarly, appellants have not shown a Brady violation at the trial stage.
There was no suppression of evidence because the jury heard about the relocation
assistance provided to Anaya. (See People v. Verdugo, supra, 50 Cal.4th at p. 281
[“‘[E]vidence that is presented at trial is not considered suppressed, regardless of
whether or not it had previously been disclosed during discovery.’ [Citation.]”].)
After considering the evidence, the jury found Anaya’s identification of appellants
credible and convicted them. On this record, appellants cannot show a Brady
violation.

15

APPENDIX C

2.

Anaya’s Statements to Detective Carias About Gang Member

“Cricket”
At trial, Detective Carias testified that Anaya told him he knew the driver of
the green truck, but would not disclose any information about the driver other than
the fact that he was a Rockwood gang member. Anaya also told the detective that
when he was being taken to the truck, he saw a Rockwood gang member named
Cricket. Barajas contends the failure to disclose the transcript of this interview
prior to the preliminary hearing was a violation of the prosecution’s obligations
under Brady. We disagree.
First, as appellant Barajas concedes, trial counsel failed to object to the late
disclosure of the transcript on Brady grounds. Thus, this argument has been
forfeited. (People v. McPeters (1992) 2 Cal.4th 1148, 1174.) Even were we to
consider this issue, we would find no Brady violation. As appellant’s counsel
admitted in the trial court, prior to the preliminary hearing, he had a copy of the
recording of the interview, although “a lot of it was in Spanish, translations
pending.” Moreover, appellant’s counsel had a copy of the transcript at the
preliminary hearing. Although counsel asserted he did not have the opportunity or
time to read the entire interview transcript, he never requested a continuance. In
addition, at trial, Vargas’s counsel elicited testimony about Cricket from Detective
Carias, and in closing argument suggested the police should have investigated
whether Cricket had been involved in the crimes. On this record, appellant Barajas
has not shown that evidence of Anaya’s statements about Cricket was suppressed
by the prosecution, either at the preliminary hearing stage or at trial. Thus, he has
failed to demonstrate a Brady violation. (See People v. Verdugo, supra, 50 Cal.4th
at p. 281.)

16

APPENDIX C

B.

Whether Admission of the Preliminary Hearing Testimony Violated the

Confrontation Clause.
“A criminal defendant has a constitutionally guaranteed right to confront and
cross-examine the witnesses against him or her. [Citations.] The right of
confrontation is not absolute, however, and may ‘in appropriate cases’ bow to
other legitimate interests in the criminal trial process. [Citations.] An exception to
the confrontation requirement exists where the witness is unavailable, has given
testimony at a previous judicial proceeding against the same defendant, and was
subject to cross-examination by that defendant. [Citations.] Further, the federal
Constitution guarantees an opportunity for effective cross-examination, not a
cross-examination that is as effective as a defendant might prefer. [Citation.]”
(People v. Carter (2005) 36 Cal.4th 1114, 1172.) This exception is codified in the
California Evidence Code at section 1291. Section 1291 provides, in relevant part,
that “[e]vidence of former testimony is not made inadmissible by the hearsay rule
if the declarant is unavailable as a witness and . . . [¶] . . . [¶] [t]he party against
whom the former testimony is offered was a party to the action or proceeding in
which the testimony was given and had the right and opportunity to cross-examine
the declarant with an interest and motive similar to that which he has at the
hearing.” When the requirements of Evidence Code section 1291 are met, “the
preliminary hearing testimony of an unavailable witness may be admitted at trial
without violating a defendant’s confrontation right.” (People v. Herrera (2010)
49 Cal.4th 613, 621.)
Appellants contend the admission of Anaya’s preliminary hearing testimony
violated their constitutional right to confront him, because they did not have an
adequate opportunity to cross-examine him about (a) the witness relocation

17

APPENDIX C

assistance, (b) his statements relating to Cricket, and (c) his fear of the Sinaloa
drug cartel. We conclude there was no reversible error.
Here, the requirements of Evidence Code section 1291 were met. Anaya
was unavailable to testify at trial because he invoked his Fifth Amendment right to
remain silent. Anaya was cross-examined by appellants’ counsel at the
preliminary hearing, including on his identification of appellants as his assailants.
Appellants’ interest and motive in cross-examining Anaya at the preliminary
hearing were closely similar, if not identical to, their objectives at trial -- namely,
to attempt to discredit the prosecution’s theory that they kidnapped and attempted
to kill Anaya. (See People v. Carter, supra, 36 Cal.4th at p. 1172 [defendant’s
interest and motive in cross-examining adverse witness -- to discredit prosecution’s
theory of the case -- were sufficiently similar at the preliminary hearing and at trial
to satisfy requirements of Evidence Code section 1291].)
Appellants’ inability to cross-examine Anaya about witness relocation
assistance at the preliminary hearing did not render their cross-examination
constitutionally inadequate. Anaya identified appellants as his assailants prior to
any offer of relocation assistance. Additionally, at trial, appellants were able to
cross-examine Detective Carias about his payments to Anaya as part of the witness
relocation program. Thus, the jury was able to consider the relocation assistance in
determining Anaya’s credibility. On this record, they failed to demonstrate any
confrontation clause violation.
As to Anaya’s statements relating to Cricket, appellant Barajas has failed to
demonstrate that he lacked an adequate opportunity to cross-examine Anaya about
those statements. As detailed above, Barajas’s counsel had a copy of the recording
of the interview before the preliminary hearing and a copy of the interview
transcript at the preliminary hearing. Thus, he had an opportunity to cross-

18

APPENDIX C

examine Anaya about the statements he had made relating to Cricket in that
interview. As Barajas’s counsel had the opportunity for cross-examination, the
admission of the preliminary testimony under Evidence Code section 1291 did not
violate the confrontation clause. (People v. Carter, supra, 36 Cal.4th at pp. 1172
& 1174 [confrontation clause guarantees an opportunity for cross-examination, not
a particular form of cross-examination].) Moreover, the jury heard about the
presence of Cricket outside the apartment on the night Anaya was shot, and was
urged in closing argument to consider whether Cricket may have been involved.
On this record, Barajas has failed to demonstrate a confrontation clause violation.
As to Anaya’s fear of the Sinaloa drug cartel, his statements concerning the
drug cartel were made on February 15, 2013, four months after the preliminary
hearing. Those statements were not inconsistent with any of Anaya’s statements at
the preliminary hearing. Moreover, the statements were presented to the jury
through the trial testimony of Officer Villagran. In short, the admission of Anaya’s
6

preliminary hearing testimony did not violate appellants’ confrontation rights.

6

Appellants also contend they received ineffective assistance of counsel when
trial counsel failed to move to strike Anaya’s preliminary testimony on the basis
that the prosecution had violated Brady and the confrontation clause. In order to
prevail on a claim of ineffective assistance of counsel, appellant must show (1) that
counsel’s representation fell below an objective standard of reasonableness under
prevailing professional norms, and (2) that there is a reasonable probability that but
for counsel’s unprofessional errors, the result would have been more favorable to
the defendant. (Strickland v. Washington (1984) 466 U.S. 668, 687-688; People v.
Gray (2005) 37 Cal.4th 168, 206-207; People v. Kelly (1992) 1 Cal.4th 495, 519520.) We conclude that appellants have failed to show either prong. First,
Barajas’s counsel objected to the admission of Anaya’s preliminary testimony on
the ground his client’s right to confront and cross-examine Anaya during the
hearing was “hampered,” and Vargas’s counsel made a Brady objection. In light
of these evidentiary objections, other trial counsel need not raise the same
objections on behalf of their clients. When the trial court overruled the objections,
19

APPENDIX C

C.

Jury Instruction on Delayed Disclosure of Evidence
Appellants next contend the trial court abused its discretion in denying a

defense request to instruct the jury with CALCRIM No. 306, as a sanction for the
prosecution’s failure to disclose the witness relocation assistance. CALCRIM No.
306 generally informs the jury that a party has failed to disclose relevant evidence,
that the failure may deny the other side an opportunity to receive a fair trial, and
that the late disclosure may be considered when evaluating the evidence. The trial
court denied the request on the ground that evidence of the relocation assistance
had been presented to the jury. We discern no abuse of discretion.
As discussed, the prosecution has an obligation under Brady to disclose
favorable evidence. In addition, “[s]ection 1054.1 (the reciprocal-discovery
statute) ‘independently requires the prosecution to disclose to the
defense . . . certain categories of evidence “in the possession of the prosecuting
attorney or [known by] the prosecuting attorney . . . to be in the possession of the
investigating agencies.”’ [Citation.] Evidence subject to disclosure includes . . .
‘[a]ny exculpatory evidence’ [citation]. ‘Absent good cause, such evidence must
be disclosed at least 30 days before trial, or immediately if discovered or obtained
within 30 days of trial. (§ 1054.7.)’ [Citation.] [¶] Upon a showing both that the
defense complied with the informal discovery procedures provided by the statute,
and that the prosecutor has not complied with section 1054.1, a trial
court . . . may . . . ‘advise the jury of any failure or refusal to disclose and of any
untimely disclosure.’ [Citation.] A violation of section 1054.1 is subject to the
trial counsel were not unprofessional for failing to move specifically to strike the
testimony on the same grounds. Moreover, as we have determined that there was
no Brady violation and that the admission of the preliminary hearing testimony did
not violate appellants’ confrontation clause rights, appellants cannot show
prejudice.
20

APPENDIX C

harmless-error standard set forth in People v. Watson (1956) 46 Cal.2d 818, 836.
[Citation.]” (People v. Verdugo, supra, 50 Cal.4th at pp. 279-280.)
Here, appellants were not prejudiced because the information was presented
to the jury through the cross-examination of Detective Carias. (See People v.
Verdugo, supra, 50 Cal.4th at p. 281 [no Brady violation where previously
undisclosed evidence was presented at trial; no prejudice from violation of section
1054.1 where defense counsel had time to prepare for cross-examination on
previously undisclosed evidence].) As a result, no instruction regarding delayed
disclosure was required. Moreover, for the reasons stated above, any error in
failing to instruct the jury regarding delayed discovery was harmless under any
standard of reversible error. (Chapman v. California (1967) 386 U.S. 18, 22;
People v. Watson, supra, 46 Cal.2d at p. 836.)

D.

Whether the Trial Court Abused its Discretion in Excluding Certain

Statements Anaya had Made to Detective Carias Regarding Cornejo.
At the preliminary hearing, Anaya testified that when he was dragged into
the alley, Vargas shot him in the head. Anaya also testified that “Little Man”
(Cornejo) drew a handgun and tried to shoot him, but the gun jammed. Vargas and
Cornejo then reentered the truck. As Anaya began running away, two shots were
fired from the vehicle.
At trial, the court precluded Cornejo’s counsel from introducing two
statements Anaya made to Detective Carias, stating that “Little Man” was
screaming after the shots were fired from the vehicle and speculating that Cornejo
7

might have shot himself in the foot. Defense counsel had sought to introduce the
7

Anaya told Detective Carias: “And then, boom. Then . . . the Expedition
went in reverse. Then they left again. And . . . at that time, I heard Little Man, that
21

APPENDIX C

statements to show that Cornejo was not “Little Man,” because when arrested a
few weeks later, Cornejo showed no sign of injury. The trial court determined that
the two statements were not inconsistent with Anaya’s preliminary hearing
testimony: “There was some kind of scream after they were in the car. There’s no
testimony about it. And there’s no way of knowing whether he was screaming
because he was frustrated at his gun or he was screaming because Mr. Anaya had
gotten back up or they were driving away or -- you know, it’s total speculation that
he was screaming because he shot himself.” The court excluded the statements as
hearsay, and also under Evidence Code section 352, as being more prejudicial than
probative. On appeal, Cornejo contends the trial court abused its discretion in
excluding the statements. We disagree.
Evidence Code section 1235 provides that “Evidence of a statement made by
a witness is not made inadmissible by the hearsay rule if the statement is
inconsistent with his testimony at the hearing . . . .” Here, there was no
preliminary hearing testimony whatsoever about Cornejo screaming. Thus, there is
no inconsistency between Anaya’s preliminary hearing testimony and the two
hearsay statements defense counsel sought to introduce.
Cornejo contends in the alternative that the statements were admissible
under Evidence Code section 356, which provides: “Where part of an act,
he got off. Because the fool said, get out, get out. He told him, get out, fool. So
fucking -- I could hear Tico’s voice. You know, I recognized him. And then, when
Little Man shot, that’s -- oh I don’t know if -- I don’t know if he shot himself
because the gun -- he was having problems with the gun. So he shot. He goes,
oh.” Detective Carias asked, “So you heard him?” Anaya replied: “I heard him.
You know, I don’t know why he was going to scream, you know.” Anaya further
stated, “ So I think, like, in my head, after all the incident when I was just in the
hospital thinking like -- this fool fucking shoot himself, or what?” Later the
detective asked Anaya if he had heard Little Man screaming, and Anaya answered
in the affirmative.
22

APPENDIX C

declaration, conversation, or writing is given in evidence by one party, the whole
on the same subject may be inquired into by an adverse party; . . . and when a
detached act, declaration, conversation, or writing is given in evidence, any other
act, declaration, conversation, or writing which is necessary to make it understood
may also be given in evidence.” (Italics added.) He contends the two statements
were part of the “same subject matter of the entire shooting incident.” We discern
no error in the trial court’s exclusion of the statements. They did not resolve any
ambiguity, clarify or otherwise explain Anaya’s testimony, and the record reflects
they were unnecessary to understand the testimony.
Moreover, even had the court erred, any error would be harmless. (People v.
Garcia (1984) 160 Cal.App.3d 82, 93, fn. 12 [evidentiary errors are tested under
harmless error standard of People v. Watson, supra, 46 Cal.2d at p. 836].) Anaya
identified Cornejo as one of his assailants. The statements indicated that Cornejo
had screamed after the shots were fired at Anaya from the truck. Anaya never
stated that he observed Cornejo shoot himself in the foot, or heard anyone say that
Cornejo had been shot. Although Anaya speculated that Cornejo may have
screamed because he shot himself in the foot, it is just as likely that Cornejo
screamed because the shots had missed Anaya. Thus, even had the statements
been admitted, it is not reasonably probable that the jury would have reached a
different result.

E.

Sufficiency of the Evidence
Cornejo and Pacheco challenge the sufficiency of the evidence to support

certain of their convictions and sentencing enhancements. “In determining
whether the evidence is sufficient to support a conviction or an enhancement, ‘the
relevant question is whether, after viewing the evidence in the light most favorable

23

APPENDIX C

to the prosecution, any rational trier of fact could have found the essential elements
of the crime beyond a reasonable doubt.’ [Citations.] Under this standard, ‘an
appellate court in a criminal case . . . does not ask itself whether it believes that the
evidence at the trial established guilt beyond a reasonable doubt.’ [Citation.]
Rather, the reviewing court ‘must review the whole record in the light most
favorable to the judgment below to determine whether it discloses substantial
evidence -- that is, evidence which is reasonable, credible, and of solid value -such that a reasonable trier of fact could find the defendant guilty beyond a
reasonable doubt.’ [Citation.]” (People v. Vy (2004) 122 Cal.App.4th 1209, 1224,
italics omitted.)

1.

Cornejo’s Conviction for Carrying a Concealed Firearm that was

Stolen
As detailed above, on August 22, 2012, Detective Hernandez arrested
Cornejo after a short pursuit. During the pursuit, Cornejo had thrown a loaded .22
handgun away. When he was interviewed, Cornejo told Officer Chang that he had
stolen the gun from a Rockwood gang member and that he needed it for protection
because he had been “jumped out” of the Rockwood gang and had gotten into a
fight with a juvenile.
As a result of this incident, Cornejo was charged with having a concealed
firearm on his person, in violation of section 25400, subdivision (a)(2). It also was
alleged that he committed the offense for the benefit of a criminal street gang
(§ 186.22, subd. (b)(1)(C)). The jury found Cornejo guilty as charged and found
true the gang enhancement allegation. It also found true that the firearm was
stolen, and that Cornejo knew or reasonably should have known that it was stolen.
The latter finding is significant because it elevates the offense from a misdemeanor

24

APPENDIX C

to a felony. (See § 25400, subd. (c)(2).) The trial court sentenced Cornejo to three
years on count 7, plus four years for the gang enhancement.
Appellant contends the evidence was insufficient to support the jury’s
findings that the firearm was stolen and that he committed the offense for the
benefit of the Rockwood street gang. We disagree. As to the gang enhancement
allegation, the gang expert’s testimony was sufficient to prove the elements of that
allegation. (See, e.g., People v. Williams (2009) 170 Cal.App.4th 587, 621; People
v. Martinez (2008) 158 Cal.App.4th 1324, 1332-1333.) As to whether the handgun
was stolen, appellant himself told Officer Chang he had stolen the handgun.
Appellant contends it would be inconsistent for him to possess a concealed
firearm to benefit the Rockwood gang when he had been “jumped out” of the gang
and had stolen it from a Rockwood gang member. We disagree. First, the jury
was not required to believe Cornejo’s statement that he had been jumped out of the
gang. Indeed, Detective Hernandez opined that only gang members would know
the hidden locations where a gang would store firearms. Second, nothing
precludes animosity between members of the same gang. Appellant could have
stolen the handgun from another gang member for myriad reasons, none of which
would negate the fact that the Rockwood gang benefitted from having a member
armed in gang territory to defend it from rival gangs. Stated differently, the gang
would benefit if Cornejo were willing to defend its interests despite any personal
animosity toward a specific gang member. In short, a reasonable jury could have
made both findings, and there was substantial record in the evidence to support
them.

25

APPENDIX C

2.

Pacheco’s Convictions as an Aider and Abettor in the Kidnapping and

Attempted Murder of Anaya
As detailed above, Anaya testified that Pacheco, armed with a .45-caliber
handgun, was present in the apartment and participated in assaulting Anaya in the
bathroom. Anaya also testified that Pacheco remained in the apartment when
Anaya was taken to the green truck, driven to the alley, and shot. Pacheco’s GPS
tracking device showed that Pacheco remained in the apartment. In closing
argument, the prosecutor stated it did not matter that Pacheco remained behind
because he aided and abetted in the kidnapping and murder. The jury convicted
Pacheco on all counts.

8

Pacheco contends there was insufficient evidence to support the jury’s
finding that he aided and abetted in the kidnapping and attempted murder of
Anaya. We disagree. “[P]roof of aider and abettor liability requires proof in three
distinct areas: (a) the direct perpetrator’s actus reus -- a crime committed by the
direct perpetrator, (b) the aider and abettor’s mens rea -- knowledge of the direct
perpetrator’s unlawful intent and an intent to assist in achieving those unlawful
ends, and (c) the aider and abettor’s actus reus -- conduct by the aider and abettor
that in fact assists the achievement of the crime.” (People v. Perez (2005)
35 Cal.4th 1219, 1225.)
Here, the prosecution proved that the other defendants -- the direct
perpetrators -- kidnapped and attempted to murder Anaya. As to Pacheco’s mens
rea and actus reus, the jury heard the following: Pacheco was present when Anaya
gave Vargas the .357 handgun, when Vargas asked Anaya whether Anaya was an

8

The jury was instructed on direct aider and abettor liability. The prosecution
declined to proceed on a natural and probable consequences or uncharged
conspiracy theory.
26

APPENDIX C

informant, when Vargas told Anaya to remain in the bathroom, and when Cornejo
threatened Anaya with a gun. Pacheco participated in beating up Anaya, and he
was present and armed with a .45-caliber handgun when Vargas injected Anaya
with methamphetamine. Pacheco was also present when Vargas placed a sweater
over Anaya’s head and took him out of the apartment. On this record, a reasonable
jury could infer that Pacheco knew that his fellow gang members, who were armed
with handguns, would take Anaya, who was suspected of being an informant, to
another location and shoot him. (Cf. People v. Moore (1953) 120 Cal.App.2d 303,
306 [“‘The presence of one at the commission of a felony by another is evidence to
be considered in determining whether or not he was guilty of aiding and abetting;
and it has also been held that presence, companionship, and conduct before and
after the offense are circumstances from which one’s participation in the criminal
intent may be inferred’”].) Pacheco aided the offenses by participating in beating
Anaya and provided an armed presence when Vargas was injecting him with
methamphetamine, both acts that rendered Anaya more malleable and less likely to
resist the kidnapping and shooting. Moreover, a reasonable jury could have
inferred that the only reason Pacheco, who was armed, did not accompany the
other appellants as they kidnapped and shot Anaya was because he had a GPS
tracking device on his person. In short, there was substantial evidence in the
record to support Pacheco’s convictions.

F.

Cumulative Error
Finally, appellants contend that, even if harmless individually, the

cumulative effect of these claimed trial errors mandates reversal of their
convictions. Because we have found no error, their claim of cumulative error fails.

27

APPENDIX C

(See People v. Seaton (2001) 26 Cal.4th 598, 639; People v. Bolin (1998)
18 Cal.4th 297, 335.)

DISPOSITION
The judgments are affirmed.

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS.

MANELLA, J.

We concur:

EPSTEIN, P. J.

COLLINS, J.

28

APPENDIX C

